<html>
<title> - MANAGEMENT AND SPENDING CHALLENGES WITHIN THE DEPARTMENT OF ENERGY'S OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
        MANAGEMENT AND SPENDING CHALLENGES WITHIN THE DEPARTMENT
      OF ENERGY'S OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INVESTIGATIONS
                             AND OVERSIGHT
                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            February 5, 2020

                               __________

                           Serial No. 116-66

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
39-570 PDF            WASHINGTON : 2020       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                VACANCY
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                  HON. BILL FOSTER, Illinois, Chairman
SUZANNE BONAMICI, Oregon             RALPH NORMAN, South Carolina, 
STEVE COHEN, Tennessee                   Ranking Member
DON BEYER, Virginia                  ANDY BIGGS, Arizona
JENNIFER WEXTON, Virginia            MICHAEL WALTZ, Florida
                                 ------                                

                         Subcommittee on Energy

                HON. LIZZIE FLETCHER, Texas, Chairwoman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
JERRY McNERNEY, California           MICHAEL CLOUD, Texas
BILL FOSTER, Illinois                JIM BAIRD, Indiana
SEAN CASTEN, Illinois
CONOR LAMB, Pennsylvania

                         C  O  N  T  E  N  T  S

                            February 5, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Bill Foster, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     9
    Written Statement............................................    11

Statement by Representative Ralph Norman, Ranking Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    18

Written statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    19

                               Witnesses:

Panel I:
Mr. Daniel Simmons, Assistant Secretary, Department of Energy's 
  Office of Energy Efficiency and Renewable Energy
    Oral Statement...............................................    19
    Written Statement............................................    22

Discussion, Panel I..............................................    28

Panel II:
Dr. Charles Gay, Member, Sandia National Laboratories Energy and 
  Homeland Security External Advisory Board; former Director of 
  the Solar Energy Technologies Office, Department of Energy's 
  Office of Energy Efficiency and Renewable Energy
    Oral Statement...............................................    40
    Written Statement............................................    42

Mr. Anthony M. Reardon, National President, National Treasury 
  Employees Union
    Oral Statement...............................................   138
    Written Statement............................................   140

Mr. Arjun Krishnaswami, Policy Analyst, Climate & Clean Energy 
  Program, Natural Resources Defense Council
    Oral Statement...............................................   147
    Written Statement............................................   149

Discussion, Panel II.............................................   167

             Appendix I: Answers to Post-Hearing Questions

Mr. Daniel Simmons, Assistant Secretary, Department of Energy's 
  Office of Energy Efficiency and Renewable Energy...............   182

Dr. Charles Gay, Member, Sandia National Laboratories Energy and 
  Homeland Security External Advisory Board; former Director of 
  the Solar Energy Technologies Office, Department of Energy's 
  Office of Energy Efficiency and Renewable Energy...............   224

Mr. Arjun Krishnaswami, Policy Analyst, Climate & Clean Energy 
  Program, Natural Resources Defense Council.....................   229

            Appendix II: Additional Material for the Record

Report submitted by Representative Bill Foster...................   236

Reports submitted by Arjun Krishnaswami..........................   247


                   MANAGEMENT AND SPENDING CHALLENGES

                   WITHIN THE DEPARTMENT OF ENERGY'S

                      OFFICE OF ENERGY EFFICIENCY

                          AND RENEWABLE ENERGY

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2020

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittees met, pursuant to notice, at 10:01 a.m., 
in room 2318 of the Rayburn House Office Building, Hon. Bill 
Foster [Chairman of the Subcommittee on Investigations and 
Oversight] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Chairman Foster. The hearing will now come to order.
     And without objection, the Chair is authorized to declare 
a recess at any time.
     Well, good morning, and welcome to this joint hearing of 
the Investigations and Oversight and Energy Subcommittees. I'm 
pleased to be wielding the gavel for the first time as the 
Chair of the I&O Subcommittee and to share leadership of this 
panel with Ranking Member Norman of South Carolina.
     We're here to discuss the Department of Energy's Office of 
Energy Efficiency and Renewable Energy, EERE, and its efforts 
to advance clean energy technologies and energy efficiency 
programs.
     As a scientist who spent over 24 years working at one of 
America's great national laboratories, I know firsthand how 
vital federally funded research is to scientific breakthroughs. 
EERE's investments in clean energy are an excellent example. 
The office has supported many of America's best innovators and 
businesses in their efforts to research, develop, and 
demonstrate cutting-edge technologies in sustainable 
transportation, renewable power, and energy efficiency. It is 
one of the Federal Government's most powerful tools for 
addressing climate change and for generating economic 
opportunities.
     You know, for those of you who know, I've spent a lot of 
my time in Congress as a Co-Chair of the National Labs Caucus 
and dragging Members of Congress to the 17 DOE (Department of 
Energy) national labs because it's important that they 
understand, and they do when they see the wonderful research 
that's done there. But when things don't go as Congress expects 
them to, I think that's one of the times that we have to just, 
you know, put aside our disappointment and try to correct 
course. And that's what a big part of the charge of this 
Committee is.
     You know, unfortunately, you know, we have a budget 
process that involves negotiations with the Administration, but 
ultimately, Congress gets to decide. The proposals from the 
Administration, in the case of EERE, have cut their R&D 
(research and development) funding in the past years by more 
than 80 percent, so we've had a policy disagreement there. But 
when Congress passes a budget, we expect that budget to be 
followed. And when we see that it's not and where--and there 
are things that will be presented by the subsequent witnesses 
where there may not have been very high-quality, good-faith 
effort to implement that budget, then there are questions that 
we must be asking.
     You know, I'm really proud that the budget thing has been 
resolved in prior years and this year in favor of research 
actually. The--we have had in Congress bipartisan 
appropriations agreement that provides robust and historically 
large funding for EERE. And this is a great win for the 
environment and the future of the U.S. economy.
     But yet in recent years it really seems as though EERE has 
not spent the money that Congress directed to it, and it's been 
slow to release grant funding. For example, EERE carried over 
$823 million dollars this fiscal year, which is an increase 
over previous years. This represents more than 1/3 of the 
budget that EERE was allocated for last year. We want to make 
sure that EERE manages its R&D investments in an efficient 
manner and in keeping with congressional intent.
     Furthermore, it has been brought to this Committee's 
attention that EERE canceled a $46 million grant days before 
award finalists were be--were to be announced. Ninety-two 
applicants, who had submitted proposals to compete for this 
funding, which was intended to spur innovation in solar 
energies technologies, ended up going away emptyhanded and 
confused. It seems as though this decision was made at a 
political level at EERE, and it seems to have been fairly 
arbitrary and not based--you know, not based on a thoughtful 
discussion internally of the issues.
     Now, my Committee staff spoke with several researchers 
that applied to this grant and said they were confused and 
disempowered by EERE's decision to cancel the funding 
opportunity so late in the process. And my staff have prepared 
a report on this issue, which I would now like to enter the 
staff report into the record. Without objection, so ordered.
     Chairman Foster. If potential grantees do not think EERE 
is a reliable partner or doubt that the application process is 
fair, they are much less likely to engage with DOE in the 
future, and that would be a loss to the United States. I'm 
concerned about the chilling effect this could have on 
scientific research, as well as the potential harm to the 
United States' position as a global leader in a clean energy 
future. And given its increased funding, it's vital that EERE 
manage the R&D spending in as responsible and timely a manner 
as possible so that we can solve the most important problems of 
this generation and the next. Obviously, EERE must be 
adequately staffed so it can manage, administer, and monitor 
these millions of research dollars. And here again, we perceive 
a problem. The EERE staff level have dropped since 2017 despite 
Congress providing more money for salaries and benefits. The 
Appropriations Committees have expressed concern over EERE's 
low staffing levels and directed DOE to provide a plan for 
significantly staffing up by the end of this fiscal year. I 
understand that they have yet to receive their briefing from 
EERE on this matter and look forward to seeing that report 
myself.
     Let me be clear that this hearing is not about taking 
shots at people. I have tremendous respect particularly for the 
career staff who've--you know, many of them have spent a good 
hunk of their careers making sure that we have a strong clean 
energy future for this country. But we're trying to think, you 
know, how to make sure that such a great Federal research 
program can really achieve its potential.
     This Committee is dedicated to the stewardship of 
scientific research and the Federal workforce that carries it 
out. EERE has helped deliver a competitive innovation edge to 
the United States that requires steady vigilance to maintain. 
To maintain this commendable legacy of success, it's vital that 
DOE's innovation mission remain independent of political 
interference and respectful of the time that stakeholders and 
personnel invest in their work with the agency.
     Assistant Secretary Simmons, I'm glad that you've been 
able to join us today for this discussion of important issues. 
I understand, you know, how difficult it can be to find a time 
that works for both the Committee and DOE's schedule, and so I 
am--well, I won't go there. It would have been nicer to have an 
earlier understanding on when we could have an actual official 
speak on behalf of EERE here. Happy that you've finally 
arrived.
     And we also have a distinguished second panel in the 
hearing today. And I thank all the witnesses for being here and 
their willingness to share their expertise and perspectives. 
Thank you.
     [The prepared statement of Chairman Foster follows:]

    Good morning and welcome to this joint hearing of the 
Investigations & Oversight and Energy Subcommittees. I'm 
pleased to wield the gavel for the first time as the Chair of 
Investigations & Oversight and to share leadership of this 
panel with Ranking Member Norman of South Carolina. We are here 
today to discuss the Department of Energy's Office of Energy 
Efficiency and Renewable Energy-EERE-and its efforts to advance 
clean energy technologies and energy efficiency programs.
    As a scientist who spent 24 years working at one of 
America's great national laboratories, I know firsthand how 
vital federally funded research is to scientific breakthroughs. 
EERE's investments in clean energy are an excellent example. 
This office has supported many of America's best innovators and 
businesses in their efforts to develop cutting-edge energy 
technologies. It is one of the federal government's most 
powerful tools for addressing climate change and for generating 
economic opportunities.
    Unfortunately, the budget proposed by the Trump 
Administration this past year sought to reduce EERE's R&D 
funding by more than 80%. I'm proud to say that the bipartisan 
appropriations agreement signed into law in December provided 
robust funding for EERE in spite of that. Yet, in recent years, 
it seems that EERE has been slow to spend. EERE carried over 
$823 million dollars into this fiscal year. This represents 
more than a third of the budget EERE was allocated for last 
year. We want to make sure EERE manages its R&D investments in 
an efficient manner and in keeping with Congressional intent.
    Further, it has been brought to this Committee's attention 
that EERE canceled a $46 million grant days before award 
finalists were to be announced. Ninety-two applicants submitted 
proposals to compete for this funding, which was intended to 
spur innovation in solar energy technologies. However, it seems 
political officials at EERE arbitrarily decided to cancel, 
rewrite, and reissue the grant, circumventing career staff with 
decades of experience, at significant cost to the taxpayer.
    My Committee staff spoke with several researchers that 
applied to this grant who said they felt confused and 
disempowered by EERE's decision to cancel the funding 
opportunity so late in the process. My staff have prepared a 
report on this issue; I would now like to enter this staff 
report into the record.If potential grantees do not think EERE 
is a reliable partner, they are less likely to engage with DOE 
in the future. I am concerned about the effect this could have 
on the United States' position as a global leader in clean 
energy. Of course, EERE must also be adequately staffed so that 
it can administer its research dollars. EERE staff levels have 
severely dropped since 2017, despite Congress providing more 
money for salaries and benefits. The Appropriations Committees 
have directed DOE to provide a plan for significantly staffing 
up by the end of this fiscal year. I understand they have yet 
to receive their briefing from EERE on this matter.
    Let me be clear that this hearing is not about taking shots 
at people. We're here to think about how to make sure a great 
federal research program can achieve its potential. This 
Committee is dedicated to the stewardship of scientific 
research and the federal workforce that carries it out. EERE 
has helped deliver a competitive innovation edge to the United 
States. To maintain this legacy of success, it is vital that 
EERE remain independent of political interference and 
respectful of the time that stakeholders and personnel invest 
in their work with the agency.
    Assistant Secretary Simmons, I'm glad that you can join us 
today. I understand how difficult it can be to find a time that 
works for all our schedules. That is why Committee staff 
reached out four weeks ago to ask DOE to provide a witness for 
today's hearing. I look forward to a productive discussion 
today, as well as a healthy working relationship in the 
future.We also have a distinguished second panel for the 
hearing today. I thank the witnesses for being here.

     Chairman Foster. And I will now recognize Ranking Member 
for the Subcommittee on Investigation and Oversight, Mr. 
Norman, for an opening statement.
     Mr. Norman. Thank you, Dr. Foster and Chairwoman Fletcher, 
for convening this hearing, and thank you to the Assistant 
Secretary Daniel Simmons for your testimony and participation 
this morning.
     We're here today to discuss the Department of Energy's 
Efficiency and Renewable Energy, EERE. We will examine 
management and spending challenges at EERE, assess the actions 
it has taken to address and resolve these challenges, and 
explore its clean energy research, development, demonstration, 
and commercialization activities.
     EERE's mission is to support the United States leadership 
in the global clean energy economy through a wide variety of 
research and development initiatives. As such, EERE plays a 
significant role in opening the door for the widespread use of 
renewable energy technologies.
     Having received $2.85 billion in fiscal year 2020, EERE is 
the Department's largest applied energy research and 
development office. Its current spending levels are more than 
$200 million higher than the total amount of R&D funding for 
all of DOE's other applied offices combined.
     As Ranking Member of the Investigations and Oversight 
Subcommittee, I recognize the important role of congressional 
oversight and support this Committee's efforts to shine a light 
on instances of waste, fraud, and abuse in Federal departments 
and agencies. Given its historically high funding levels, 
oversight of EERE spending is certainly warranted. 
Unfortunately, it seems that the focus of today's oversight 
hearing is misguided.
     We'll hear claims today about EERE not spending their 
carryover balances, inadequate staffing levels, and a funding 
opportunity announcement that was canceled. Yet each of these 
issues can be addressed in a single sentence.
     Traditionally, EERE has carried over 25 to 35 percent of 
total available funding to the next fiscal year, and with their 
increased budgets, they have continued this trend in each of 
fiscal years 2016 through 2019. Simple math shows that funding 
is dispensed at the same rate as a percentage of the total 
budget. In other words, it's business as usual at EERE.
     For staffing, and in accordance with the fiscal year 2020 
appropriations package, EERE does owe us a plan to reach the 
675 to 700 full-time staff by the end of the fiscal year, but 
that won't occur until October. Maybe a hearing then would be 
more appropriate?
     And finally, the assertation that a funding opportunity 
was influenced by political appointees, the Department has 
every right to revisit, review, and revise FOAs (funding 
opportunity announcements), and grantees fully understand this 
when submitting applications. Folks, we do this in our everyday 
businesses and our family budgets.
     Yes, it is unfortunate that financial resources were used 
to revise this announcement and that applications had to be 
modified, but I would rather our Federal dollars be spent on a 
comprehensive, effective funding opportunity than one that 
fails to align with the Department's mission. In other words, 
concerns of timeliness must yield to responsible spending.
     Additionally, more applications were received for the 
revised FOA than the original. This fact cuts against the 
argument that DOE's actions somehow deterred applicants from 
reapplying for funding. With millions of dollars on the line, 
these applications clearly recognize the value of patience and 
perseverance.
     I appreciate Assistant Secretary Simmons for altering his 
schedule and, from what I understand, missing an important 
event with the Department. To fully utilize your valuable time, 
I would encourage my colleagues to broaden their focus to the 
many successes EERE has achieved in the first year in office.
     As the Co-Chair of the Solar Caucus, I fully believe in 
the benefits that renewable energy solutions can have on 
consumers, businesses, and the environment. However, it's 
important to stress that the Federal Government should shift 
away from funding late-stage development for which there 
already exists a viable market and instead focus on 
opportunities to fund early stage research and development 
initiatives.
     When the EERE was first established in 1981, renewables 
like solar and wind were neither technologically nor 
financially viable energy alternatives. Today, more than 
250,000 Americans work in the $17 billion solar industry. It is 
abundantly clear that consumer demand is already driving 
increased development of solar technologies. I want to help 
such technologies grow, but I am not prepared to pay them an 
allowance once they have reached maturity.
     Ideally, a government program should be designed to 
address a concrete issue, tackle it head on, and work itself 
out of existence. However, as Ronald Reagan famously said, 
``The closest thing to immortality is a government program once 
established.'' Yet to the dismay of some Members on this 
Committee, this Administration has previously asked for 
reductions to EERE applied research funding. For my part, I 
applaud the Administration's decision to look and take a 
dynamic look at where funding is most needed and will yield the 
highest return.
     Rather than subsidize established and successful 
technologies, we should be pursuing breakthrough discoveries in 
areas like materials, which can fundamentally improve the 
performance of solar energy technologies. We can prioritize 
investments so that our research has broad applications in the 
energy sector and helps responsibly grow the American economy. 
I would like to thank the DOE for understanding that role and 
for being there this morning to defend it.
     Before I close, I want to take this opportunity to welcome 
Chairman Foster to the Investigations and Oversight Committee. 
It's a pleasure to have you on board, Dr. Foster. I look 
forward to working with you during the remainder of this 
Congress.
     And I again want to thank the witnesses for being here 
today, and I look forward to your testimony.
     Let me say I'm a real estate developer. There's nobody 
that has more interest in this, in growing this economy in 
clean businesses than the real estate industry. That's why I'm 
very, very interested in this topic.
     I yield back the balance of my time.
     [The prepared statement of Mr. Norman follows:]

    Thank you, Chairman Foster and Chairwoman Fletcher, for 
convening this hearing, and thank you to Assistant Secretary 
Daniel Simmons for your testimony this morning.
    We are here today to discuss the Department of Energy's 
Office of Energy Efficiency and Renewable Energy. We will 
examine management and spending challenges at EERE, assess the 
actions it has taken to address and resolve these challenges, 
and explore its clean energy research, development, 
demonstration, and commercialization activities.
    EERE's mission is to support U.S. leadership in the global 
clean energy economy through a wide variety of research and 
development initiatives. As such, EERE plays a significant role 
in opening the door for the widespread use of renewable energy 
technologies.
    Having received $2.85 billion in FY 2020, EERE is the 
Department's largest applied energy research and development 
office. Its current spending levels are more than $200 million 
higher than the total amount of R&D funding for all of DOE's 
other applied offices combined.
    As Ranking Member of the Investigations and Oversight 
Subcommittee, I recognize the important role of congressional 
oversight and support this Committee's efforts to shine a light 
on instances of waste, fraud, and abuse in Federal departments 
and agencies. Given its historically high funding levels, 
oversight of EERE spending is certainly warranted. 
Unfortunately, it seems that the focus of today's oversight 
hearing is misguided.
    We'll hear claims today about EERE not spending their 
carryover balance, inadequate staffing levels, and a Funding 
Opportunity Announcement that was "canceled." Yet each of these 
issues can be addressed in a single sentence.
    Traditionally, EERE has carried over 25 to 35% of total 
available funding to the next fiscal year, and with their 
increased budget, they have continued this trend in each of 
fiscal years 2016 through 2019. Simple math shows that funding 
is dispensed at the same rate as a percentage of the total 
budget. In other words, it is business as usual at EERE.
    For staffing, and in accordance with the FY 2020 
appropriations package, EERE does owe us a plan to reach 675 to 
700 full-time staff by the end of the fiscal year, but that 
won't occur until October. Maybe a hearing then would be more 
appropriate?
    And finally, the assertation that a funding opportunity was 
influenced by political appointees. The Department has every 
right to revisit, review, and revise FOAs, and grantees fully 
understand this when submitting applications.
    Yes, it is unfortunate that financial resources were used 
to revise this announcement and that applications had to be 
modified. But I would rather our federal dollars be spent on a 
comprehensive, effective funding opportunity than one that 
fails to align with the Department's mission. In other words, 
concerns of timeliness must yield to responsible spending.
    Additionally, more applications were received for the 
revised FOA than the original. This fact cuts against the 
argument that DOE's actions somehow deterred applicants from 
reapplying for funding. With millions of dollars on the line, 
these applicants clearly recognized the value of patience and 
perseverance.
    I appreciate Assistant Secretary Simmons for altering his 
schedule and, from what I understand, missing an important 
event with the Department.
    To fully utilize his valuable time, I would encourage my 
colleagues to broaden their focus to the many successes EERE 
has achieved in his first year in office.
    As the Co-Chair of the Solar Caucus, I fully believe in the 
benefits that renewable energy solutions can have on consumers, 
businesses, and the environment. However, it's important to 
stress that the Federal government should shift away from 
funding late-stage development for which there already exists a 
viable market, and instead focus on opportunities to fund 
early-stage research and development initiatives.
    When the EERE was first established in 1981, renewables 
like Solar and Wind were neither technologically nor 
financially viable energy alternatives. Today, more than 
250,000 Americans work in the $17 billion-dollar solar 
industry. It is abundantly clear that consumer demand is 
already driving increased deployment of solar technologies. I 
want to help such technologies grow, but I am not prepared to 
pay them an allowance once they have reached maturity.
    Ideally, a government program should be designed to address 
a concrete issue, tackle it head on, and work itself out of 
existence. However, as Reagan famously said: "The closest thing 
to immortality is a government program once established."
    Yet to the dismay of some Members on this Committee, this 
Administration has previously asked for reductions to EERE's 
applied research funding. For my part, I applaud the 
Administration's decision to look take a dynamic look at where 
funding is most needed and will yield the highest gains.
    Rather than subsidize established and successful 
technologies, we should be pursuing breakthrough discoveries in 
areas like materials, which can fundamentally improve the 
performance of solar energy technologies.
    We can prioritize investments so that our research has 
broad applications in the energy sector and helps responsibly 
grow the American economy. I would like to thank DOE for 
understanding that role and for being here this morning to 
defend it.
    Before I close, I want to take this opportunity to welcome 
Chairman Foster to the Investigations and Oversight 
Subcommittee. It's a pleasure to have you on board, Dr. Foster. 
I look forward to working with you during the remainder of this 
Congress.
    I again want to thank the witnesses for being here today. I 
look forward to your testimony.
    I yield back the balance of my time.

     Chairman Foster. Well, thank you. We are honored here to 
have the full Committee Chairwoman Ms. Johnson with us here 
today, and the Chair will now recognize the Chairwoman for an 
opening statement.
     Chairwoman Johnson. Thank you very much, Mr. Chairman, for 
holding this joint hearing on oversight to the Department of 
Energy's Office of Energy Efficiency and Renewable Energy, also 
known as EERE.
     EERE leads the Department's efforts in developing and 
delivering affordable energy efficiency and renewable energy 
solutions, aiming to help transform the world's energy system 
and respond to the global challenges of climate change.
     According to EERE, its investments of $12 billion in 
taxpayers' money toward clean energy research and development 
has yielded an estimated net economic benefit to the United 
States of more than $230 billion, with an overall annual return 
on investment of more than 20 percent. I'm pleased to hear 
this, given that this Committee has jurisdiction over the 
Department's vitally important science and energy R&D 
activities, laboratories, and facilities.
     That being said, we still have significant investments we 
need to make to continue to innovate on energy efficiency and 
renewable energy technologies, further bringing down their 
costs and making them even more beneficial to Americans. We 
have only begun to touch the surface of what these technologies 
can do, and our national labs, universities, and industry 
partners possess the expertise to explore them to their fullest 
potential. That's why this hearing is so important.
     I am disappointed to hear that EERE has been unable to 
move hundreds of millions of dollars in grant funding out of 
the door, and to my knowledge, has even canceled some of those 
grant funding days before award finalists were to be announced. 
This does not sound like the type of support that our Nation's 
scientists, engineers, entrepreneurs, and industry leaders can 
rely on. If the United States is to become a global leader in 
clean energy, EERE needs to be sufficiently and responsibly 
funding R&D in these areas.
     Beyond funding, it will take the coordinated work of EERE 
employees and our stakeholders to turn that vision into a 
reality. I join my colleagues in the House and Senate 
Appropriations Committees in their bipartisan concerns over 
EERE's staffing levels, which have reached new lows. We should 
be doing everything we can to ensure that EERE has the staff it 
needs to administer and oversee federally funded research as 
effectively and efficiently as possible.
     Constituents from Member districts on both sides of the 
aisle benefit greatly from this research, and we believe it is 
our duty to ensure the responsible use of our tax dollars. When 
it comes to these issues, this Committee has consistently 
demonstrated healthy, bipartisan collaboration. I've been 
appreciative of the many substantial energy research bills that 
we've advocated and advanced in this Congress with our 
colleagues across the aisle.
     I am glad that Assistant Secretary Simmons could join us 
today and look forward to a productive discussion with our 
distinguished witness to learn more about how we can help with 
these management and spending challenges.
     We can all agree that we are here to support EERE in its 
efforts to enhance U.S. energy productivity and our national 
competitiveness. Thank you, and I yield back.
     [The prepared statement of Chairwoman Johnson follows:]

    Good morning and thank you, Chairman Foster and Chairwoman 
Fletcher, for holding this joint hearing on oversight of the 
Department of Energy's Office of Energy Efficiency and 
Renewable Energy--also known as EERE.
    EERE leads the Department's efforts in developing and 
delivering affordable energy efficiency and renewable energy 
solutions, aiming to help transform the world's energy system 
and respond to the global challenge of climate change.
    According to EERE, its investments of $12 billion in 
taxpayer dollars toward clean energy research and development 
has yielded an estimated net economic benefit to the United 
States of more than $230 billion, with an overall annual return 
on investment of more than 20%. I am pleased to hear this, 
given that this Committee has jurisdiction over the 
Department's vitally important science and energy R&D 
activities, laboratories, and facilities.
    That being said, we still have significant investments we 
need to make to continue to innovate on energy efficiency and 
renewable energy technologies, further bringing down their 
costs and making them even more beneficial for Americans. We 
have only begun to touch the surface of what these technologies 
can do, and our national labs, universities, and industry 
partners possess the expertise to explore them to their fullest 
potential.
    That's why this hearing is so important. I am disappointed 
to hear that EERE has been unable to move hundreds of millions 
of dollars in grant funding out the door, and to my knowledge, 
has even cancelled some of that grant funding days before award 
finalists were to be announced. This does not sound like the 
type of support our nation's scientists, engineers, 
entrepreneurs, and industry leaders can rely on. If the United 
States is to become a global leader in clean energy, EERE needs 
to be sufficiently and responsibly funding R&D in these areas.
    Beyond funding, it will take the coordinated work of EERE 
employees and our stakeholders to turn that vision into a 
reality. I join my colleagues in the House and Senate 
Appropriations Committees in their bipartisan concerns over 
EERE's staffing levels, which have reached new lows. We should 
be doing everything we can to ensure that EERE has the staff it 
needs to administer and oversee federally funded research as 
effectively and efficiently as possible.
    Constituents from Member districts on both sides of the 
aisle benefit greatly from this research, and we believe it is 
our duty to ensure the responsible use of their tax dollars. 
When it comes to these issues, this Committee has consistently 
demonstrated healthy, bipartisan collaboration. I've been 
appreciative of the many substantial energy research bills that 
we have advanced in this Congress with our colleagues across 
the aisle.
    I am glad that Assistant Secretary Simmons could join us 
today and look forward to a productive discussion with our 
distinguished witnesses to learn more about how we can help 
with these management and spending challenges. We can all 
agree-we are here to support EERE in its efforts to enhance 
U.S. energy productivity and our national competitiveness.
    Thank you, and I yield back

     Chairman Foster. Thank you. And the Chair now recognizes 
the Ranking Member for Subcommittee on Energy, Mr. Weber, for 
an opening statement.
     Mr. Weber. Thank you, Chairman Foster. I appreciate you 
holding today's joint subcommittee hearing. I'm looking forward 
to hearing from our witnesses about DOE's management of its 
clean energy research, development, demonstration, as well as 
its commercialization activities.
     The Department's Office of Energy Efficiency and Renewable 
Energy, EERE, aims to make advanced clean energy technologies 
and services more available and reliable while lowering costs 
to both users and society as a whole. EERE is tasked as the 
lead Federal agency for clean energy research and development 
with programs in transportation, renewable energy, and energy 
efficiency. And on the Energy Subcommittee, we've held many 
hearings on this work in Congress.
     So by now, we all know that after substantial growth 
during the Obama Administration, EERE is by far DOE's largest 
applied research program. With its fiscal year 2020 
appropriated levels approaching $3 billion with a B in annual 
funding, EERE is bigger today than all of the R&D funding 
provided for, get this, fossil energy, nuclear energy, 
electricity, and cybersecurity combined. Let that sink in.
     Our national debt, I don't have to tell you all, is at $23 
trillion and rising. So any major Federal investment like what 
we are seeing in EERE deserves the Department's justification 
and full attention every single year. With so many of the 
taxpayers' dollars at stake, a blank check tied to a poorly 
defined list of priorities is just as wasteful as spending 
money on a failed project. Can you say Solyndra? Careful 
management of EERE's abundant resources should be a priority of 
the Department and of this Committee.
     Let me be clear. I'm supportive of congressional oversight 
of DOE's R&D activities. It's our job, however, to make 
inquiries into the effective management of these programs, 
especially the higher-funded ones.
     I'd like to take this moment to echo Ranking Member 
Norman's comments on today's oversight discussion. I believe 
today's inquiry misses the forest for the trees. And we all 
want more trees, right? But we don't want it to cause more 
misses.
     After reviewing documents provided to this Committee, it 
is clear that the DOE has operated appropriately and within its 
mandate for responsible grant funding review. The Department 
did not withhold executed grants or cancel any promise. Simply 
stated, EERE simply did its job. And a key part of that job is 
to take the necessary time to faithfully review the benefits of 
potential grants to the Department and to ensure that they meet 
the mission goals as set forth by this current Administration. 
We simply can't afford to recklessly spend Federal money. Did I 
mention we've got a huge Federal debt and growing?
     I applaud the Department's leadership on their attempts to 
develop fluid and clearly defined funding opportunities that 
advance energy innovation in line with their strategic plan. In 
fact, I would respectfully argue that finding additional 
opportunities for this kind of goal optimization across the 
Department would be a better use of this Committee's time and 
oversight resources quite frankly.
     It is imperative that we in Congress take a responsible 
approach to energy research and ensure that Federal investments 
go toward work that actually maximizes our investment in next-
generation technology. To that end, this is going to mean we 
must make the best effort to focus Federal programs on 
innovative technologies that are not already commercially 
deployed and to take the long-term approach to address key 
national issues such as energy reliability, resilience, 
security.
     I look forward to hearing from Assistant Secretary Daniel 
Simmons on the programs within EERE that are doing just that. 
Since his ceremonial swearing-in exactly one year ago tomorrow, 
happy anniversary tomorrow, Assistant Secretary Simmons has 
done an excellent job of focusing EERE's work on the overall 
mission goals of the Department set by the Secretary of Energy 
and the Trump Administration.
     I hope we can have a productive conversation this morning 
about how we in Congress can continue to support them in that 
very mission to address America's energy challenges while 
supporting our national security and our prosperity.
     Thank you, Mr. Chairman. I yield back.
     [The prepared statement of Mr. Weber follows:]

    Thank you, Chairman Foster and Chairwoman Fletcher for 
holding today's joint subcommittee hearing. I'm looking forward 
to hearing from our witnesses about DOE's management of its 
clean energy research, development, demonstration and 
commercialization activities.
    The Department's Office of Energy Efficiency and Renewable 
Energy aims to make advanced clean energy technologies and 
services more available and reliable while lowering costs to 
both users and society as a whole.
    EERE is tasked as the lead federal agency for clean energy 
research and development, with programs in transportation, 
renewable energy, and energy efficiency. And on the Energy 
Subcommittee, we've held many hearings on its work this 
Congress.
    So by now, we all know that after substantial growth during 
the Obama Administration, EERE is by far DOE's largest applied 
research program.
    With its fiscal year 2020 appropriated levels approaching 
$3 billion in annual funding, EERE is bigger today than all of 
the R&D funding provided for fossil energy, nuclear energy, 
electricity, and cybersecurity combined.
    Our national debt is at $23 trillion and rising. So any 
major federal investment like what we are seeing at EERE 
deserves the Department's justification and our full attention 
each year. With so many of the taxpayer's dollars at stake, a 
blank check tied to poorly defined priorities is just as 
wasteful as spending money on a failed project. Careful 
management of EERE's abundant resources should be a priority of 
the Department and of this Committee.
    That's why I want to be clear--I'm supportive of 
Congressional oversight of DOE's R&D activities. It is our job 
to make inquiries into the effective management of these 
programs--especially the highly funded ones. But I'd like to 
take this moment to echo Ranking Member Norman's comments on 
today's oversight discussion. I believe today's inquiry misses 
the forest for the trees.After reviewing documents provided to 
this Committee, it is clear that DOE has operated appropriately 
and within its mandate for responsible grant funding review. 
The Department did not withhold executed grants or cancel any 
promise, EERE simply did its job.
    And a key part of that job is to take the necessary time to 
faithfully review the benefits of potential grants to the 
Department and ensure they meet the mission goals set forth by 
the current Administration.
    We simply can't afford to recklessly spend Federal money. I 
applaud the Department's leadership on their attempts to 
develop fluid and clearly defined funding opportunities that 
advance energy innovation in line with their strategic plan.
    In fact, I would respectfully argue that finding additional 
opportunities for this kind of goal optimization across the 
Department would be a better use of this Committee's time and 
oversight resources. It is imperative that we in Congress, take 
a responsible approach to energy research, and ensure that 
federal investments go towards work that maximizes our 
investment in nextgeneration technologies. That means we must 
make the best effort to focus federal programs on innovative 
technologies that aren't already commercially deployed and to 
take the long-term approach to address key national issues of 
energy reliability, resilience, and security.
    I look forward to hearing from Assistant Secretary Daniel 
Simmons on the programs within EERE that are doing just that. 
Since his ceremonial swearing-in exactly one year ago tomorrow, 
Assistant Secretary Simmons has done an excellent job of 
focusing EERE's work on the overall mission goals of the 
Department set by the Secretary of Energy and the Trump 
Administration. I hope we can have a productive conversation 
this morning about how we in Congress can continue to support 
them in that mission to address America's energy challenges 
while supporting our national security and prosperity.
    Thank you and I yield back the balance of my time.

     Chairman Foster. Thank you.
     If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
     [The prepared statement of Mrs. Fletcher follows:]

    Good morning and thank you to our witnesses for being here 
today.
    Throughout this Congress, this Committee has demonstrated 
strong, bipartisan support for innovation in energy 
technologies that will both address the growing impacts of 
climate change and ensure that Americans are building and 
leading the industries of the future.
    I believe I can speak for all of us when I say that we also 
have an obligation to ensure that taxpayer funds to address 
these critical missions are being managed wisely, and in 
accordance with law. But the Department of Energy's record in 
managing the various programs stewarded by its Office of Energy 
Efficiency and Renewable Energy over the last three years 
raises troubling questions.
    First, how can the significant declines in EERE's staffing 
levels and overall expertise be reconciled with the significant 
increases in its budget over the last few years. Second, why 
has EERE been unable to spend such a historically large portion 
of its prior year funds for clean energy research activities 
despite clear Congressional direction on how these funds should 
be allocated. Third, we need a far better justification for why 
EERE would cancel a $46 million funding opportunity after 
already carrying out a rigorous merit review and selection 
process for hundreds of applicants from companies and 
universities across the country. Some of the best and brightest 
in our nation collectively spent thousands of hours developing 
and reviewing their applications. They deserve a clear 
explanation for why their time and resources were wasted by the 
Department.
    I look forward to gaining a better understanding from the 
Department and our second distinguished panel of witnesses 
about how to best resolve these issues, and how to 
furtherenable EERE to achieve its mission to advance clean 
energy innovation as effectively as possible.
    Thank you, I yield back.

     Chairman Foster. At this time I'd like to introduce our 
first witness. Mr. Daniel Simmons is the Assistant Secretary 
for the Department of Energy's Office of Energy Efficiency and 
Renewable Energy. Assistant Secretary Simmons, you may now 
begin.

                TESTIMONY OF MR. DANIEL SIMMONS,

          ASSISTANT SECRETARY, DEPARTMENT OF ENERGY'S

        OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY

     Mr. Simmons. Thank you. Chairwoman Johnson, Ranking Member 
Weber, the Subcommittee on Energy, Ranking--Chairman Foster and 
Ranking Member Norman of the Subcommittee on Investigations and 
Oversight, and Members of the Subcommittee, thank you for the 
opportunity to testify today, as well as thank you for the 
support, as we've heard in these opening statements, for EERE 
and EERE staff. That is very much appreciated.
     Since 2019 when I was sworn in as Assistant Secretary, the 
Office of Energy Efficiency and Renewable Energy, EERE, has 
announced over $1.3 billion in competitive funding opportunity 
announcements, also known as FOAs, which advance America's 
economic growth and energy security while enhancing reliability 
and resilience of the U.S. energy system. We have also provided 
over $1.2 billion in funding to support research at our 
national laboratories, which play a central role in advancing 
America's leadership in scientific and energy development.
     I'd like to begin by highlighting this morning's 
announcement of up to $125.5 million in new funding to advance 
solar energy research. In addition to this announcement, 
yesterday, EERE announced up to $43.8 billion to advance 
geothermal research and development. These funding 
opportunities, along with more than--along with $300 million in 
funding for transportation made last month, total more than 
$463 million, making this the largest amount of EERE funding 
made this early in the fiscal year in at least the past 6 
years, which is to note that we take very seriously our 
responsibility to make sure the money is not just coming to the 
Department but it is also going out in funding opportunity 
announcements.
     These recent announcements are a direct reflection of the 
EERE's intention to fully utilize its appropriated research 
funding to fund technologies and innovation consistent with 
congressional guidance and Administration priorities. We live 
in an exciting time for energy technologies with more 
competitive and affordable energy resources than ever before. 
To achieve this mission of creating and sustaining American 
leadership in the global energy economy, EERE works with groups 
across DOE and in some cases the world.
     A great example of departmental coordination is the launch 
of the Energy Storage Grand Challenge announced earlier this 
year. The grand challenge is a comprehensive program to 
accelerate the development, commercialization, and utilization 
of next-generation energy storage technologies to sustain 
American global leadership in energy storage. The grand 
challenge builds on the $158 million Energy Storage Initiative 
announced in the President's FY (fiscal year) 2020 budget. In 
the fiscal year--in fiscal year 2020, EERE plans to spend $283 
million to support this critical work.
     In November 2019, DOE announced the plan--announced the 
launch of the Plastics Innovation Challenge, an EERE-led effort 
to accelerate innovations in energy-efficient plastics 
recycling technologies and develop new plastics that are 
recyclable--don't know why I just tripped up on that--
recyclable by design. The innovation challenge will draw on 
both fundamental and applied research capabilities within the 
national laboratories, universities, and industry.
     EERE's collaboration extends far beyond DOE. Earlier this 
week, DOE signed a memorandum of understanding between the 
United States and Norway to facilitate collaboration and 
leveraging of R&D advances in hydropowers--in hydropower 
between the two countries. This MOU is one example of recent 
EERE global collaboration, and it amplifies EERE's effort--
reputation as a world leader in research and development of 
energy technologies.
     All of this valuable work would not be possible without 
the dedication of our outstanding staff. EERE cares deeply 
about its staff and is actively working through the hiring 
process to recruit and hire additional talent. One of my top 
priorities upon confirmation was to address staffing needs 
within EERE.
     In FY 2019, we ramped up our hiring efforts. We worked 
with DOE's Office of Human Capital to leverage the STEM 
(scientific, technical, engineering, and mathematics) direct 
hiring authority to recruit top talent for our engineering and 
scientific positions. EERE participated in a job fair last year 
from which we are able to extend over 20 job offers. In FY 2020 
we have identified a staffing plan, and we are taking 
additional steps to reach 700--or 675 employees, as directed by 
Congress. We continue to make hiring a top priority.
     We look forward to working with you to continue promoting 
affordable and reliable energy to enhance America's growth and 
energy security. Thank you for the opportunity to appear before 
the Subcommittee today and to discuss the Office of Energy 
Efficiency and Renewable Energy. Thank you for your time. I 
look forward to your questions.
     [The prepared statement of Mr. Simmons follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
  
    
     Chairman Foster. Thank you. And we will now start our 
first round of questions, and the Chair recognizes himself for 
5 minutes.
     Mr. Simmons, EERE told my staff that the staffing count at 
the end of September was 553. This is actually one fewer than 
the number that we heard in July even though we'd heard at the 
time that EERE was working hard to get more people on board. Do 
you have an updated figure on what the staff on board is today?
     Mr. Simmons. That's--that number is roughly accurate. I 
mean, it's----
     Chairman Foster. Still five----
     Mr. Simmons [continuing]. It's accurate----
     Chairman Foster. Still 553----
     Mr. Simmons [continuing]. Within a couple----
     Chairman Foster [continuing]. Approximately?
     Mr. Simmons. Approximately, yes.
     Chairman Foster. OK. Now, DOE was instructed in the fiscal 
year 2020 appropriations package signed into law by President 
Trump, I believe, on December 20th to generate a report within 
30 days on how you plan to achieve a staffing level in the 
range of 675 to 700. Can we see this report?
     Mr. Simmons. Well, we are producing that briefing to----
     Chairman Foster. Have you seen this report at least in 
draft form?
     Mr. Simmons. No. We are working on it.
     Chairman Foster. So you have not yet seen this report 
personally even in draft form?
     Mr. Simmons. Not seen it. We are working on putting it 
together, yes.
     Chairman Foster. All right. Do you have an estimate for 
when--how much longer we'll have to wait for something that 
should have been here a couple weeks ago?
     Mr. Simmons. Within the next few weeks we should have this 
together, and we will be briefing obviously appropriations 
staff. We will be--our plan is also to include the Office of 
Human Capital to make sure that we have a holistic DOE 
perspective on our hiring--one, our hiring challenges, and two, 
how we can----
     Chairman Foster. Can you simply say whether you're 
actually committed to achieving the goal?
     Mr. Simmons. Oh, yes. Yes.
     Chairman Foster. Well--all right. Well, that would--you 
know, that would be really valuable, and we really intend to 
hold you to that commitment.
     And, you know, we have--you have several things in your 
toolkit to actually increase. It's my understanding that EERE 
has actually abandoned the Presidential Management Fellows 
program in recent months. The PMF program is designed to put 
highly talented young people with advanced degrees in a 
demonstrated leadership ability and to serve in Federal 
agencies. Is that something you may consider, restoring that 
program by taking on new PMFs and offering placements to PMFs 
who've completed fellowships successfully?
     Mr. Simmons. Yes.
     Chairman Foster. All right. On October 2018 the OPM put 
out new guidance for Federal agencies that would allow hiring 
to move more quickly for positions specifically in science, 
technology, engineering, and mathematics, STEM fields. It seems 
like the majority of EERE needs would fit into the STEM bucket. 
Has EERE taken advantage of this special hiring authority to 
try to get more employees in place?
     Mr. Simmons. Yes, we have.
     Chairman Foster. All right. And why have you not been 
effective at using this authority? And how many employees have 
you actually placed with this special authority?
     Mr. Simmons. Well, I'll have to get back with you on the 
exact numbers. Last year when we had the job fair, that is the 
authority that we used at the job fair to extend the over 20 
offers from that--from that outcome----
     Chairman Foster. So over 20 offers, how many people are on 
board as a result of that?
     Mr. Simmons. I don't have those numbers right now. We'll 
have to get back you with you on those specific numbers.
     Chairman Foster. So the difficulty you're encountering is 
that people may be extended offers but don't in the end take 
them. Do you find that when you're trying to recruit people, 
there is an obstacle in place that the Administration's 
position is to largely or substantially defund EERE and it 
wouldn't really be a very good place to be hired into?
     Mr. Simmons. I have not heard that and plus I push back on 
that in that what matters at the end of the day is appropriated 
dollars. The President's proposed budget comes out as the 
beginning of the process----
     Chairman Foster. No, I understand that----
     Mr. Simmons [continuing]. The beginning of negotiation, 
but----
     Chairman Foster. --Congress is in charge of final 
appropriations. I understand that very clearly. And our--one of 
the sources of our unhappiness here is that when we make a 
clear statement that we want something, you know, funded at a 
certain level, we expect that executed in good faith. And, you 
know, there is--it's unclear to many of us that there has been 
a completely good-faith effort in all of the areas. Many of the 
areas I think you--as you correctly point out, you've done an 
excellent job, but there are areas where I perceive that you've 
fallen short, and that will be the subject----
     Mr. Simmons. May I make one comment? From my perspective 
this has been a very good-faith effort. As you noted, we have 
fallen short. It is not a--it's not because of good faith.
     Chairman Foster. No, I understand the decision to 
improve--approve both the position descriptions and the 
decision for who to actually hire for these positions must go 
before the Under Secretary for Energy or even the Secretary 
himself. Even junior-level positions, as I understand it, must 
go through this additional step that's new in this 
Administration. Is that a correct statement?
     Mr. Simmons. Well, the process is that we have internal 
approvals at EERE. They then get sent to Human Capital. Human 
Capital then takes care of any other additional approvals in 
the process. There could be additional approvals in the 
process, so that----
     Chairman Foster. There could be----
     Mr. Simmons. But let me----
     Chairman Foster. But are those----
     Mr. Simmons. But let me also say----
     Chairman Foster. Anyway, I'm out of time here, but I will 
return to this question----
     Mr. Simmons. OK.
     Chairman Foster [continuing]. Because this seems like----
     Mr. Simmons. Yes. No----
     Chairman Foster [continuing]. An unnecessary new feature.
     Mr. Simmons. Happy to do that.
     Chairman Foster. All right. Thank you. And I now yield to 
the Ranking Member.
     Mr. Norman. Thank you, Chairman Foster. And, Mr. Simmons, 
let me say, and I think Congressman Weber alluded to this, we'd 
be derelict in our duties if we didn't question the funding. 
We're $22 trillion in debt. We do this in our businesses. We do 
this in our budgets. Any responsible elected official should be 
doing this.
     The specific topics that we've discussed today is 
management and spending challenges within the EERE. These 
include the upper trend and carryover balances, staffing levels 
and revision of a fiscal year 2018 funding opportunity 
announcement. Can you describe the actions EERE has taken since 
your confirmation to address on a macro level each of these 
issues?
     Mr. Simmons. In terms of carryover, one of the--you know, 
we have carried over a--consistently about--you know, if you 
were to--so in fiscal year 2020 we carried over about 35 
percent of our prior-year funding to fiscal year 2020. In 
fiscal year 2016, which is the previous Administration, they 
carried over 35 percent. To fiscal year 2017 they carried over 
37 percent. Like we are roughly in line. And the reason for 
that is it takes a while to do--to go through the entire FOA 
process. We are trying to be good stewards of taxpayer dollars. 
When Congress does not appropriate, you know, final year 
appropriations till later in the fiscal year, it takes a while 
to get the--those funding announcements out the door. It then 
takes at least 9 months before we can make selections. So that 
is--that's a part of the challenge. It is the process.
     In terms of staffing, I will state that it is--staffing is 
a harder challenge than I thought that it was a year ago, and 
we are continuing to take actions working with Human Capital to 
make sure to the best of our ability that our--the people that 
work on EERE positions in Human Capital are given the resources 
that they need to be able to get those jobs posted. There's 
over 70 positions that are currently in process as in have been 
signed--there's no more approvals in terms of the building that 
needs to happen for these 70 positions where it is--17 offers 
have been extended, 22 positions are in the interview and 
selection process, an additional 35 selections are with Human 
Capital for processing.
     There's currently four open announcements, which does not 
sound like a lot, but it is more than there's been in years. 
What I'm trying to say is we take this issue very seriously of 
staffing because what matters to me from a staff perspective is 
the staff is able to execute on the moneys that Congress has 
provided. And when we have fewer staff, that is more 
challenging.
     So I don't remember if there was something else in your 
question that I should answer.
     Mr. Norman. OK. Thank you. And as Co-Chairman of the Solar 
Caucus, I'm fully aware of the benefits that renewable energy 
solutions can have on consumers' businesses and on the 
environment. Nevertheless, I do not believe that it is 
appropriate for the Federal Government to pick winners and 
losers in the market. How does EERE ensure that it is not 
picking winners and losers in the market while simultaneously 
fulfilling its mission to support the United States' leadership 
in the global clean energy economy through the many research 
and development initiatives?
     Mr. Simmons. Two ways. First of all, there is an emphasis 
on early stage research. On early stage research, particularly 
things such as materials research that is--that is 
precompetitive research. That is research that we think can 
help all parties in the solar area. Also that the--the funding 
opportunity announcements, when they--when those go out, by 
focusing on early- to mid-stage and then partnering with the 
private sector for later stage, we are working through that 
process so we're not--we're not trying to pick a winner and 
loser for the company but advancing technology. And so by 
focusing on advancing technology, I think that that helps us do 
a good job of not picking winners and losers.
     Mr. Norman. Well, I want to applaud your efforts in that 
because, yes, the private sector is the competitiveness that is 
what made this country so great that this President is trying 
to get through a Congress that has been unwilling to listen to 
many of them. I'm running out of time. I yield back, Mr. 
Chairman.
     Chairman Foster. Thank you. And the Chair will now 
recognize Mr. Beyer for 5 minutes.
     Mr. Beyer. Thank you, Mr. Chairman, very much. Mr. 
Simmons, thanks for being here with us.
     The first question I had is--maybe I'll walk you through 
the process as I understand it that when DOE decides who should 
win a competitive grant, it conducts a merit review in which 
applications are evaluated and scored against specific 
preestablished merit review criteria and program policy 
factors, so I imagine all of those are capitalized. Is that 
correct from your perspective?
     Mr. Simmons. We would go back before that to the--when the 
funding opportunity announcement comes out, the funding 
opportunity announcement has the topics, as well as the 
criteria in the very beginning.
     Mr. Beyer. And then these reviews are performed by 
internal or external reviewers with knowledge and expertise, 
technical and scientific fields?
     Mr. Simmons. Both, as in there is an external merit review 
panel, as well as a Federal panel that reviews----
     Mr. Beyer. And then they submit their recommendations with 
numeric scores, too, to the designated selection official, 
again, capital----
     Mr. Simmons. Correct.
     Mr. Beyer [continuing]. Capital O, to make the official 
award decision.
     Mr. Simmons. Correct.
     Mr. Beyer. So my concern is in your tenure have EERE 
political appointees ever stepped in to change the award 
selections after the merit review?
     Mr. Simmons. I don't know of a specific case. What--there 
is a part of the process that you did not--that was not 
included that the selection officials briefs me on the--you 
know, on the process, and I talk through the process of how 
they selected the officials. But I can't think of a--like in my 
experience of changing one of those selections.
     Mr. Beyer. OK. And I just want to make clear that our 
concern as Democrats and Republicans would be when political 
ideological concerns come and override the merit review of the 
scientific and technical profession.
     Mr. Simmons. And that's something I take very seriously, 
that responsibility, because the--I definitely do not want to 
be in a situation of having political--those decisions made for 
political reasons.
     Mr. Beyer. Great. Thank you. We've talked a lot about the 
$824 million postponed, but we also have--DOE has now missed 21 
legally mandated deadlines for 21 energy efficiency standards. 
And in your testimony in front of the Energy and Commerce 
Committee nearly a year ago you committed to meeting those 
legal obligations, but DOE continues to miss the deadlines. 
What's happening with these legally mandated standards, and 
how--what are you going to correct this lapse?
     Mr. Simmons. Well, since July 1--or--July--January 1 of 
last year, we have published 26 notices relating to energy 
conservation standards, including 7 final and 14 notices 
related to test procedures. Over the next 6 months we plan to 
issue 34 notices related to energy conservation standards, 
including 2 final rules and 29 notices related to test 
procedures, including 4 final rules.
     Congress should receive a--you are due a report to 
Congress on the status of the Appliance Standards Program. It 
is currently in agency review, but that report should be sent 
to Congress.
     Mr. Beyer. OK. Thank you. And we just--as Members of the 
Oversight Committee want to keep the pressure on you, so----
     Mr. Simmons. Thank you.
     Mr. Beyer. Mr. Assistant Secretary, too, you know, one of 
the concerns that, for example, my friend Mr. Norman talks 
about is the--making sure that the private sector continues to 
do this. But the Appropriations Committee in Congress has made 
clear that they want EERE not to just do early stage but also 
mid-stage and late stage. But the concern is that you--
structurally, you've been pushing back to early stage only. Is 
department leadership giving you direction to steer away from 
mid- and late-stage R&D to focus on early stage?
     Mr. Simmons. No. The--you know, the memo that comes out 
every year from OMB states to focus on early stage R&D. Then, 
Congress also has in the--in appropriations report language 
instructs us to be working all across from early to late stage. 
We think that--you know, we're trying very hard to find the 
appropriate balance of all of those, and we have funded just 
recently some demonstration projects. We are--we take this--
let's call it a challenge of working from late to kind of 
middle to late and demonstration--we take that challenge 
seriously and are working very hard to be able to have the--to 
move the work along appropriately so that, you know, these 
technologies--these technologies cannot stay in the national 
labs, for example. We need to get them into the real world.
     Mr. Beyer. Great. But we just want to make sure that 
you're committed to----
     Mr. Simmons. Yes.
     Mr. Beyer [continuing]. Following the congressional----
     Mr. Simmons. Yes.
     Mr. Beyer. Great. Great. Thank you, Mr. Chair. I yield 
back.
     Chairman Foster. The Chair will now recognize the 
gentleman from Texas, Mr. Weber.
     Mr. Weber. Thank you, Mr. Chairman.
     Assistant Secretary Simmons, today, renewable energy 
sources are becoming an integral part of the U.S. electricity 
generation mix. This increase is almost entirely due to the 
incorporation of additional wind and solar power. And I'm quite 
frankly pleased to see American industry leading the way in 
supporting the growth of these clean-energy technologies. 
You're probably aware Texas is No. 1 in wind energy and No. 5 
in solar panels.
     So my question to you is what are you going to do to see 
to see that Texas gets to be No. 1 in solar panels? No, no, no, 
that's not it.
     However, as our energy portfolio continues to diversify, 
I'm very concerned about the security and the reliability of 
our Nation's electric grid. As you know, Texas has 85 percent 
of ERCOTs (Electric Reliability Council of Texas) and its own 
electric grid, very, very concerning to us. So as more more 
renewable energy technologies come online, how significant is 
the need for Federal R&D dollars into grid resiliency and 
cybersecurity in your opinion?
     Mr. Simmons. This is a very important topic. This is one 
of the reasons that Secretary Perry stood up the new 
Cybersecurity--the Office of Cybersecurity and Emergency 
Response to, one, demonstrate the level of commitment the 
Department has in terms of cybersecurity. The Office of 
Electricity has a laser-like focus on improving resiliency, 
protecting defense-critical energy infrastructure. These are 
two critical areas.
     And one of the things that matters for me as the head of 
EERE is to make sure that my offices are coordinating with 
those offices. This is--that collaboration is critical to make 
sure that we're working together across the DOE to promote 
these--like--these incredibly important topics.
     Mr. Weber. Well, thanks for saying that. My next question 
was as Assistant Secretary how do you collaborate with DOE's 
relevant offices like Office of Electricity, Office of 
Cybersecurity, Energy Security, and Emergency Response? And I 
think, quite frankly, what you're saying here today is that, as 
part of that good-faith effort you were describing to the 
Chairman earlier on that you're doing everything you can to 
make that work together.
     Mr. Simmons. I am. When--like it is something that I talk 
about when we have all-hands meeting, this need for 
collaboration. The need--the future of energy is not at all 
clear. There is going to be a lot of changes that we see in the 
future, and so one of the things that matters that we are 
collaborating across the offices in EERE and that we are 
collaborating across DOE because no matter what happens, that's 
a win-win, you know, if the cost of wind continues to come 
down, the cost of solar, so we need to be collaborating across 
the Department.
     And when we work on FOAs and--that it--is on something 
that touches the grid or touches cybersecurity, it's one of the 
things that I ask the staff--try to every single time, what 
have we done to work with the Office of Electricity or the 
Office of Cybersecurity and Emergency Response on this topic 
because--to demonstrate that needed collaboration.
     Mr. Weber. Well, thank you for saying that. As Ranking 
Member of the Subcommittee on Energy, I believe that we need to 
take that balanced and responsible approach to energy research 
and ensure that Federal investments go toward work that truly 
could not be accomplished by the private sector. And I'm 
encouraged to hear that you work with the other agencies as 
well.
     So as I mentioned in my opening statement, it is up to 
Congress to wisely invest taxpayer dollars in fundamental 
research that lays the foundation for the next generation. So 
in your opinion what areas of fundamental research and 
development within EERE are expected to lead to technological 
breakthroughs in renewable energy and energy efficiency? You 
got anything on the horizon?
     Mr. Simmons. A couple areas I think are really important. 
One is fundamental materials research around solar energy. What 
are the next-generation materials where we can really see 
improvements? Also, the fundamental research of battery 
materials, that's--that is critically important. Lithium-ion 
batteries are great, but we would like to see energy storage 
that is even better than that where we have more dense storage 
at lower cost.
     And then a third area generally is early stage research on 
critical--on the critical materials challenges such as rare-
earth elements, what can we do in terms of separations and 
processing so that those supply chains are more in the United 
States and more with our, you know, trusted partners around the 
world because so many of those only run through China. And so 
it's an important materials question and how we can do a better 
job of dealing with those issues because those materials are 
critical for future energy technologies.
     Mr. Weber. Thank you for that. Mr. Chairman, I yield back.
     Chairman Foster. Thank you. And the Chair will now 
recognize the gentleman from Illinois, Mr. Casten, for 5 
minutes.
     Mr. Casten. Thank you, Mr. Chairman. Thank you, Mr. 
Simmons. Excuse me.
     You mentioned a moment ago that the future of energy is 
hard to predict. Having spent 20 years in the sector, I kind of 
disagree with you. It's really easy to predict what's happening 
in the energy sector. It's just hard to predict the timing. 
It's big and capital-intensive, and you can see things coming.
     But I'd also point out Abraham Lincoln's great line that 
the best way to predict the future is to create it. And 
particularly given as the recently departed Secretary of Energy 
campaigned on eliminating the Department of Energy, you 
understand why we want to understand the future you're trying 
to create.
     And, historically, as you pointed out a moment ago, 
there's the political level staff, and then there's the 
exceptional career staff. And I want to understand, following 
on Mr. Foster's comments, some of the decisions you've made. 
Can you confirm that at this point either the Under Secretary 
or Secretary must sign off on all position descriptions and 
hiring decisions within EERE?
     Mr. Simmons. There are some positions that I believe that 
I have the authority to sign off on. I would have to--like any 
specifics there I would have to get back with you on.
     Mr. Casten. Well, if you could clarify because my 
understanding in the Obama Administration is that anything GS-
15 or below was done at the Assistant Secretary level. What is 
your explicit guidance for what level you can approve and at 
what level you have to go to the Secretary or Under Secretary?
     Mr. Simmons. So I'd have to get back to you on that 
because I can't remember what that--where that level is 
crossed.
     Mr. Casten. Do you believe it's consistent with what it 
was in the Obama Administration or has it been moved?
     Mr. Simmons. I think it is--I think it's been moved, but I 
don't know--I don't know what----
     Mr. Casten. Moved lower or higher?
     Mr. Simmons. It could be lower, but again, that is--that 
would be speculation. I can't really speculate on that.
     Mr. Casten. Do you know why it was moved?
     Mr. Simmons. No.
     Mr. Casten. Do you have a concern that allowing even 
junior staff to be approved by senior people could risk 
politicizing your staff?
     Mr. Simmons. No. Currently, there are over 70 hiring 
actions that are currently in process. The issue of those type 
of approvals is not the--is not our hiring challenge.
     Mr. Casten. When you----
     Mr. Simmons. There are other parts of the process that are 
the hiring challenge.
     Mr. Casten. Well, look, I was a CEO for 16 years. Hiring 
processes take time. The more people you have reviewing, the 
longer time it takes to get it done, so I'm part of this is 
the--is who is getting hired. The other process is delays. So 
when you recommend someone and send it up the chain, how long 
does that process take for you to get an answer?
     Mr. Simmons. An answer for----
     Mr. Casten. For a hiring decision. Do you make 
recommendations to the senior staff, or do those bypass you 
completely?
     Mr. Simmons. I'm not exactly--not exactly sure what you're 
asking. What happens is that we develop a staffing plan. We 
identify vacancies within EERE. We then go through the internal 
EERE approvals, and those get sent to our Human Capital Office.
     Mr. Casten. And when--and just when you say ``we,'' is 
that at your level and below?
     Mr. Simmons. Yes----
     Mr. Casten. Who is----
     Mr. Simmons [continuing]. That is the ``we,'' but I sign 
off on every single hiring action within EERE. I sign off on 
new hiring actions every single week. Every month that--we then 
send those along to the--to Human Capital and the rest of the 
process.
     Mr. Casten. And for any of those people do you have the 
authority to make a unilateral decision or do you need a 
permission slip?
     Mr. Simmons. When it comes to like what that actual 
approvals are, we approve, but, you know, one clarifying thing 
here is like we approve positions. We don't approve, you know, 
who is going to be hired in those--for those career positions.
     Mr. Casten. In June, this Committee asked EERE to share 
with us the written workflow for hiring decisionmaking in EERE. 
We have not yet received anything back. Can you commit to when 
you will share that information with us?
     Mr. Simmons. I will commit to finding out where that is 
and what the situation is.
     Mr. Casten. By when?
     Mr. Simmons. Well, as soon as practicable. I mean, I don't 
know if I can commit the Department to more than that.
     Mr. Casten. Is this a written policy? Do you know what the 
policy is?
     Mr. Simmons. I do not know what all of our written 
policies around hiring are.
     Mr. Casten. So, respectfully, do you understand the 
Department's hiring policy? I mean, this is--I get it if you 
might not know it right now, but I can't imagine running an 
organization your size and not having a written hiring policy.
     Mr. Simmons. Well, it would--come work for the Federal 
Government----
     Mr. Casten. I do.
     Mr. Simmons. The Federal hiring----
     Mr. Casten. I can give you the hiring policy in my office 
tomorrow. I have it. I run a much smaller organization than you 
do.
     Mr. Simmons. Thank you.
     Mr. Casten. It is not hard.
     Mr. Simmons. It is----
     Mr. Casten. Can you commit to a time to provide this----
     Mr. Simmons. And all of your employees are political 
appointees, and that's the challenge is dealing with the--
dealing with the--all of the hiring policies that it is--it is 
extensive, so I----
     Mr. Casten. Are you satisfied with the pace of hiring?
     Mr. Simmons. No, not at all. I'm quite frustrated with it. 
You know, I would--there's--there are many other things I would 
like to be doing than being here today at an oversight hearing 
talking about this issue, but the value is that I am frustrated 
about the pace of hiring. I generally thought that it would--
you know, that the process would not take this long. I am 
committed to working to do a better job. There are steps in the 
process that I have learned in preparing for this--preparing 
today that we are going to go back, and we are going to go work 
on smoothing out those processes.
     Mr. Casten. I'm out of time. We're trying to help you. 
Please respond to the request we gave you in June. Please 
provide it in a timely fashion, and please let us know 
precisely at what level you have authority and what level you 
need permission slips so that we can try to fix it.
     Mr. Simmons. OK.
     Mr. Casten. Thank you. I yield back.
     Mr. Simmons. Thank you.
     Chairman Foster. Thank you. And the Chair will now 
recognize the gentleman from Indiana, Mr. Baird, for 5 minutes.
     Mr. Baird. Thank you, Mr. Chairman. And, Mr. Secretary, I 
appreciate you being here today.
     I think the question I have at this point are what are 
some of the challenges that you feel that the EERE is going to 
face when we're trying to reach the number, the 675 to 700? And 
then could you relate how the STEM education program, the 
internships, the research opportunities at DOE assist in 
attracting these kind of individuals?
     Mr. Simmons. Sure. As was noted earlier, our hiring--our 
onboard count is very similar today than what it was when my 
staff briefed the subcommittee staff last June. That is 
frustrating. I would like to have a better story to tell on 
hiring than that. We need to do a much better job, and we 
will--and we have done some--we have taken some actions such as 
hiring fairs, which making sure that we are spreading the word 
as widely as possible about open positions. We will continue 
to.
     But what a lot of it comes down to is the processing that 
goes through not only Human Capital but other parts of the 
onboarding process such as--things such as badging, which might 
not sound like it is an issue but can actually like add time to 
the process. And that is something that we are going to go back 
and discuss and find out what we need to do to facilitate that 
process because we have not done a great job in the last year, 
and I want to do a much better job in this year. So it is--yes.
     So I'm a bit frustrated about that because there's only 
certain parts that are in my control. We have, you know, 70 
actions that are fully approved that are moving through the 
process, and I would like as much as possible to facilitate 
that.
     And I--with that, I--oh, the--one of the things that the 
offices have done that I'm very grateful is to use all of their 
hiring authorities, bringing on certain--some fellows such as 
AAAS (American Association for the Advancement of Science) 
fellows. I met a large number of AAAS fellows. Every month, we 
try to have lunch with the staff, whoever wants to come and 
have lunch with me, and there's always a very good turnout from 
the AAAS fellows.
     And it is--you know, that's one of the things to see these 
people early in their career and to hear what they're excited 
about because one of the things that I want to make sure with 
the staff at EERE is that it continues to be excited about our 
mission. I think that the staff at EERE is incredibly dedicated 
to the mission of the Department and the mission of EERE. And 
it is--it's, you know, one of my goals to keep it that way.
     Mr. Baird. You might make one comment if you would about, 
you know, we're putting a lot of emphasis on STEM education 
programs and encouraging the ability to fill that pipeline, to 
get employees like you're looking for. Any thoughts in that 
regard that you see what your observations might be?
     Mr. Simmons. Sure. Two things there. We do have some 
direct hiring authority for certain STEM positions. We want to 
use that to its--we want to use that authority to its fullest 
to make sure that we are getting good candidates in EERE, 
making sure that the--you know, that the technical staff, the 
program offices are well-staffed because that is our least 
burdensome way of hiring people.
     Also, because STEM is critical in the very near future, we 
should be coming out with a $20 million effort to--that's not 
to hire Federal staff, but a $20 million effort in terms of 
hiring--not hiring but in terms of STEM education that was also 
in the most recent budget, to highlight the importance of that. 
Plus our offices, our individual offices such as the office--
our Water Power Technologies Office and others are going to 
have additional work on STEM as well to make sure that we are 
doing everything we can in that area.
     Mr. Baird. One quick question, and I only got about 22 
seconds, so, anyway, I'm interested in agriculture and the 
trucking industry. Any comment about the biofuels and what 
you're doing in that area?
     Mr. Simmons. Well, that--one quick thing is on the solar 
FOA that just came out today, there's an interesting topic 
about solar and--solar and agriculture, looking how we can do a 
better job combining those two things in terms of trucking, 
heavy-duty trucking is an important area, looking at what that 
looks like in terms of electrification, in terms of using other 
fuels, in terms of bioenergy. Our Bioenergy Technologies Office 
I think is working on a lot of exciting--a lot of exciting 
areas. The--just last week I was at Lawrence Berkeley National 
Laboratory reviewing some of our work there participating in a 
summit on biomanufacturing and our Bioenergy Technologies 
Office is really leaders in this area.
     Biofuels have been somewhat of a challenge. We haven't 
been able to accomplish what we, you know, hoped we would 10, 
15 years ago in terms of the efficiency of some of those fuels. 
But we're making progress.
     Mr. Baird. Thank you very much. And I yield back.
     Chairman Foster. Thank you. And the Chair will now 
recognize the gentlewoman from Oregon, Ms. Bonamici.
     Ms. Bonamici. Thank you to the Chairs and Ranking Members, 
and thank you to our witnesses for being here today.
     I came to this hearing from a hearing in the Select 
Committee on the Climate Crisis. I know that the climate crisis 
is a--one of the greatest existential threats of our time, and 
I'm extremely concerned by this Administration's attempts to 
disregard congressional intent when spending or delaying this 
spending of appropriated dollars on clean energy research, 
development, and demonstration, which are all part of the--
going to be part of the solution to addressing this crisis.
     And in fact the Department doesn't have a great record. In 
2017 the GAO found that the Department had violated the 
Impoundment Control Act regarding the distribution of the ARPA-
E funds. So, Mr. Simmons, are you aware that Secretary Perry 
testified before this Committee in June 2019?
     Mr. Simmons. I'm--I would imagine that I knew that at the 
time, but I have no recollection of that specific hearing.
     Ms. Bonamici. Well, are you aware that during that hearing 
then-Secretary Perry committed to distributing the Department's 
appropriated funds for fiscal year 2019 and fiscal year 2020 in 
accordance with congressional intent?
     Mr. Simmons. I know that Secretary Perry has always been 
very clear about distributing funds consistent with 
congressional intent.
     Ms. Bonamici. Thank you. And has the Department 
distributed appropriated funds for fiscal year 2019 in 
accordance with congressional intent?
     Mr. Simmons. I believe so.
     Ms. Bonamici. Do you know so?
     Mr. Simmons. Well, as an in my office, which I can't 
really speak to other offices because I don't know all of the 
situations, we have worked very hard to comply with 
congressional intent.
     Ms. Bonamici. We appreciate that certainly. According to 
testimony from one of our witnesses from the Natural Resources 
Defense Council on our second panel today, which I hope you'll 
be able to listen to if you haven't already reviewed the 
testimony, the Office of Energy Efficiency and Renewable Energy 
entered FY 2020 with $820 million of unobligated funds from 
previous years. So that's equivalent to nearly 1/3 of the 
office's annual budget. Do you agree with that figure? Is that 
correct?
     Mr. Simmons. It's close. It's 35 percent of our budget.
     Ms. Bonamici. OK. But $800--about $820 million of 
unobligated funds?
     Mr. Simmons. Yes, $835.
     Ms. Bonamici. In your testimony you're quick to point to 
examples of EERE issuing large FOAs totally millions of 
dollars, and you suggest you will release the remainder of your 
FY 2020 FOAs in the coming months. How can this Committee be 
certain that the Department is deliberately allocating these 
dollars consistent with congressional intent and scientific 
integrity principles rather than with the President's goals, as 
outlined in his budget request?
     Mr. Simmons. To that I think is just to say look at our 
track record in terms of unobligated funding. Our track record, 
you know, for fiscal year--coming into fiscal year 2020 is 
consistent with the previous Administration's unobligated 
funding going into fiscal year 2016 and fiscal year 2017 in 
terms of the funding opportunity announcements themselves. 
Those topics are very much aligned.
     When the program directors come and brief me on upcoming 
FOAs, one of the things that is discussed every single time 
about every single topic is what is the congressional language 
around this topic? You know, why are we doing this topic? I 
take very seriously that--you know, that direction from 
Congress and want to make sure that we are allocating funding 
and our funding opportunity announcements are consistent with--
you know, with that direction from Congress.
     Ms. Bonamici. I appreciate that response, but it seems 
inconsistent with having $820 million of unobligated funds that 
could be used for research and development that we so 
desperately need.
     Mr. Simmons. The--from the--from the time of--from a FOA 
is released, it takes about 9 months till we have the first 
award of that funding opportunity announcement. That means that 
when we get kind of--when we get to later in the fiscal year, 
we're going to have some carryover. We're going to have some 
carryover money into the next fiscal year just because it is 
a--it takes a while to go through that process to have--for 
applications to come back, to have the merit reviews, and then 
to go through the award process because even after we have 
selected the winners, it then takes time for--to negotiate 
the--to negotiate the actual award.
     Ms. Bonamici. Well, I----
     Mr. Simmons. Unfortunately, that is longer than I would--
longer than I would wish, but it does take 9 to 12 months 
frequently.
     Ms. Bonamici. And I do want to just--and--as I yield back 
express my concern about this situation where the Department of 
Energy withdrew and then reissued the--with regard to the 
advanced solar energy technologies. And I know there's some 
documentation that's likely to be included in the record in 
this.
     And I yield back the balance of my time.
     Chairman Foster. Well, I'd like to thank our witness for 
his testimony. At this point we look forward to the follow-up 
that you've committed to, the follow-up information.
     And we will now have a short 5-minute break while we seat 
our next panel of witnesses.
     Mr. Simmons. Thank you.
     [Recess.]
     Chairman Foster. Well, welcome back. At this time I would 
like to introduce our second panel of witnesses.
     First, we have Dr. Charles Gay. Dr. Gay is a member of the 
Sandia National Laboratory Energy and Homeland Security 
External Advisory Board. Formerly, he served as the Director of 
the Solar Energy Technologies Office (SETO) at the Department 
of Energy's Office of Energy Efficiency and Renewable Energy.
     Next, Mr. Anthony Reardon. Mr. Reardon is the National 
President of the National Treasury Employees Union.
     And last, we have Mr. Arjun Krishnaswami, a political--a 
policy analyst and--for the Climate and Clean Energy Program at 
the National Resources Defense Council. And we will start with 
Dr. Charles Gay.

                  TESTIMONY OF DR. CHARLES GAY,

   MEMBER, SANDIA NATIONAL LABORATORIES' ENERGY AND HOMELAND 
               SECURITY EXTERNAL ADVISORY BOARD,

  AND FORMER DIRECTOR OF THE SOLAR ENERGY TECHNOLOGIES OFFICE,

    DEPARTMENT OF ENERGY'S OFFICE OF ENERGY EFFICIENCY AND 
                        RENEWABLE ENERGY

     Dr. Gay. Thank you, Chairman Foster and Ranking Member 
Norman, Chairman Fletcher, Ranking Member Weber, Chairwoman 
Johnson, and Ranking Member Lucas, and distinguished Members. 
Thank you for the opportunity to testify today. As you know, I 
appear pursuant to subpoena. I am committed to cooperating 
fully and truthfully. I will provide facts as I understand them 
and as I've been refreshed by having had access to redacted 
information produced by the Department of Energy under Freedom 
of Information Act discovery, which is available online. I'm 
speaking today as an individual with 45 years of experience in 
renewable energy, including 3 years at the solar energy office. 
I'm speaking on the basis of personal experience and do not 
represent the views of, nor am I speaking on behalf of Sandia 
National Laboratory or any other organization.
     With respect to the broad subject matter of this hearing, 
I'd like to thank Congress for maintaining a high level of 
steadfast support over more than a decade. It's this stability 
that was at the heart of SunShot's success in reaching our 6-
cent-a-kilowatt-hour goal 3 years ahead of schedule.
     As a natural effect of government's annual budget cycles, 
challenges sometimes arise when widely varying projections of 
forward-looking budgets are in play and plans for staffing and 
for execution of the annual FOA cycle are impacted by these 
uncertainties.
     The FY 2018 planning process was daunting because the 
final budget was not in place until halfway through the year. 
Compounding this challenge is the added complexity which is the 
result of rapid progress in renewable energy cost reduction. In 
SETO's case, we had numerous points of collaboration with other 
offices in DOE, which have included the Offices of Electricity, 
Nuclear, and Fossil Energy. It's these collaborations that help 
assure that we don't duplicate funding for the same work.
     In FY 2018 the Solar Office consolidated what had been 
subprogram specific FOAs into one mega-FOA comprised of four 
topic areas to save time and merge multiple parallel processes 
into one. I will summarize one eccentric event, the decision by 
acting EE1 Tripodi to cancel Topic 1 of that FOA just a few 
days before selections were slated to be approved in late 
August of 2018. Topic 1 addressed the congressional line item 
activity identified as systems integration. Leadership provided 
alternate language for reissuing this Topic 1.
     The rationale given for cancelation was that the FOA 
language was not understandable and that appropriate 
collaboration with the Office of Electricity had not taken 
place. I will challenge these two assertions.
     First, understandability. There were over 90 full 
proposals submitted for the original Topic 1. These were 
generated by organizations with technical expertise in the 
subject area, and in fact leadership's alternate language had 
to be rewritten. The ultimate reissuance of Topic 1 had all the 
essential attributes of the original and was expanded to 
include validation.
     Secondly related to collaboration, there is a documented 
record of email exchanges between the Solar Office and Office 
of Electricity demonstrating collaboration. My written 
testimony includes a chronology of collaboration that I 
initiated in October 2017 and which continued with numerous 
members of the Office of Electricity all the way through the 
Federal consensus panel evaluations. There are nearly a half-
dozen email threads in my written testimony referencing not 
just collaboration but editing of our Topic 1 to respond to 
requests from the Office of Electricity. Reviews and 
concurrence by Office of Electricity management included the 
Deputy Assistant Secretary for Advanced Grid Research and 
Development and the Chief of Staff to the Assistant Secretary.
     This unfortunate situation not only slowed progress in 
expanding resilient, reliable, lower-cost solar power but made 
it more difficult to engage partners because we pulled the plug 
on our own operational process.
     Allow me to thank you again for the opportunity to provide 
this testimony, and I'd be pleased to answer any questions.
     [The prepared statement of Dr. Gay follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
     Chairman Foster. The Chair will now recognize Mr. Reardon 
for his testimony.

              TESTIMONY OF MR. ANTHONY M. REARDON,

                      NATIONAL PRESIDENT,

               NATIONAL TREASURY EMPLOYEES UNION

     Mr. Reardon. Thank you, Chairman Foster, Ranking Member 
Weber, and distinguished Members of the Subcommittee. I 
appreciate the opportunity to be here today.
     As the National President of NTEU, I have the honor of 
leading a union that represents 150,000 Federal employees at 33 
agencies, including employees at DOE and its Office of Energy 
Efficiency and Renewable Energy. EERE is a leader in the 
transition to a global clean energy economy and a prosperous 
United States powered by clean, affordable, and secure energy. 
The employees at EERE are committed to the principle that 
government-funded research is necessary to foster innovative 
ideas that aren't yet viable in the private sector.
     According to the Energy Department's own statistics, the 
$20 billion in taxpayer investment in EERE over the last 12 
years has yielded a net economic benefit to our country of $230 
billion. However, despite its clear economic benefits, the 
Administration's budget request for the past 3 years have 
called for at least a 70 percent reduction in funding to EERE. 
Budget cuts of this size would cripple the mission of EERE, 
undercut its work and its economic impact, and would require 
the agency to lay off much of the workforce.
     Unsurprisingly, the proposed budget cuts created a morale 
crisis for the employees at EERE. The scientists, 
mathematicians, and engineers who work there could be earning 
much larger paychecks elsewhere but chose a career in civil 
service out of a desire to serve their country. Former EERE 
employees with immense knowledge and expertise have told us 
they retired earlier than originally planned because of 
declining morale. Midcareer employees have taken other 
positions either within DOE or outside the Department where 
they tell us they feel much more valued and their talent and 
skill more valued.
     Despite Congress' rejection of the proposed budget cuts, 
EERE is still significantly understaffed. Due to several 
issues, including hiring failures by management and poor 
employee relations, EERE is currently operating with only 553 
FTEs, down from 710 in January of 2017. As a result, important 
work is left undone or employees are overburdened, making EERE 
an even less attractive place to work as it seeks to fill 
positions.
     In addition, the lack of adequate staffing has resulted in 
fewer site visits to monitor projects funded by EERE and ensure 
that they are on track. I'm sure Members of the Science 
Oversight Subcommittee and other Members here today understand 
how important project oversight is.
     Further, there have been at least 20 employees transferred 
out of EERE, and at least some of these transfers were not 
performed in accordance with the collective bargaining 
agreement currently in place. Employees have told us that they 
were dismayed at the lack of process and explanation.
     Employees have also reported that there is a strong 
perception that EERE management does not value longer-tenured 
employees and seems to encourage eligible employees to retire 
rather than stay with EERE. Our union stewards there have told 
me grievances and EEO (Equal Employment Opportunity) complaints 
are now more frequent and more egregious.
     While the 2017 hiring freeze guidance was lifted, many 
stringent and hampering conditions and approvals still seem to 
be standing in the way of hiring at EERE. It is our 
understanding that the Department of Energy human resources has 
had vacant positions pending classification and next steps in 
the hiring process since the summer of 2019. We understand the 
agency plans to hire at least 80--we heard today 70 FTEs--but 
so far, we've seen no evidence that they've been taking the 
steps needed to fill these positions.
     In addition to the challenges within EERE, the past few 
years have been a trying time for all civil servants who work 
hard every day for the American people. Federal employees have 
faced government shutdowns and threats of shutdowns. They've 
been subjected to unnecessary forced relocations and proposed 
agency closures. They've been disparaged by government leaders 
who refer to them as bureaucrats and swamp creatures.
     Federal employees have faced pay freezes, hiring freezes, 
threatened cuts to employee benefits, elimination of key work-
life balance benefits such as telework, and ongoing efforts to 
roll back employee collective bargaining and due process rights 
and protections. This creates a constant state of uncertainty 
for Federal employees, and that has a significant impact on 
morale both at EERE and across the government, as well as the 
government's ability to recruit and retain talented employees.
     So I thank you again for the opportunity to be here on 
behalf of the skilled and talented employees NTEU (National 
Treasury Employees Union) represents at EERE, and I look 
forward to your questions.
     [The prepared statement of Mr. Reardon follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
     Chairman Foster. Thank you. And the Chair will now 
recognize Mr. Krishnaswami.

      TESTIMONY OF MR. ARJUN KRISHNASWAMI, POLICY ANALYST,

               CLIMATE AND CLEAN ENERGY PROGRAM,

               NATURAL RESOURCES DEFENSE COUNCIL

     Mr. Krishnaswami. Thank you, Chair. Good morning, Chair 
Foster, Chairs Johnson and Fletcher, and Ranking Members 
Norman, Weber, and Lucas. My name is Arjun Krishnaswami, and I 
appear today on behalf of the Natural Resources Defense 
Council. Thank you for the opportunity to address troubling 
trends in the Trump Administration's management of DOE 
programs, including EERE and ARPA-E (Advanced Research Projects 
Agency--Energy).
     I will make three key points. First, DOE's programs are 
impactful, popular, and have strong bipartisan support. Second, 
the programs have faced significant delays in spending and 
holdups to hiring. And third, Congress can and should act to 
remediate these issues.
     To my first point, DOE's clean energy innovation work has 
already had a profound positive impact, including through 
millions of clean energy jobs and bill savings for everyday 
Americans. In fact, every dollar invested through EERE programs 
results in about $33 of benefit to the American people. These 
are wise investments of taxpayer investments--of taxpayer 
dollars.
     Thankfully, these programs have received bipartisan 
support from Congress. Congress has rejected President Trump's 
serious cuts and instead increased funding for clean energy 
R&D. But when the Administration fails to spend the money that 
Congress gives it, the American people miss out.
     Which brings me to my second point. These programs have 
faced serious delays in spending and holdups to staffing. NRDC 
began tracking spending patterns for ARPA-E and EERE in 2018 
using publicly available data, which is why I'm here today. Our 
analysis found that both offices were significantly behind on 
spending their appropriated money over the past 2 years. ARPA-E 
hadn't spent between 80 and 90 percent at the end of each 
fiscal year. And EERE hadn't spent 14 to 18 percent. That's 
about $300-$400 million in unspent funds for EERE. That's a 
result of both issuing and announcing FOAs late and not 
following the expected timeline to spend that money, including 
delays in the Solar Office, the Wind Office, and the Waterpower 
Office over the last 2 years.
     As a result, both offices carry large sums of unspent any 
into 2020. For EERE, as has been noted, the carryover balance 
was equal to about 1/3 of its annual budget. That's the 
greatest carryover in at least the last 10 years, and ARPA-E 
similarly carried a carryover balance equal to about the annual 
budget of the agency.
     I want to make one note here, which is that though there 
have been carryover balances in the past, the--prior 
Administrations have not proposed to cancel unspent money, 
whereas under this Administration, the Administration has 
proposed to cancel unobligated balances every year, 2017, 2018, 
and last year 2019. So the--there's extra diligence due here 
around carryover balances.
     Put simply, these delays and carryovers that I've noted 
mean that less money is getting to researchers and businesses 
to do their critical work. That's money that Congress has said 
it wants invested in clean energy R&D.
     In a related troubling trend, EERE has become severely 
understaffed, meaning that a smaller staff must manage 
significantly more money. If the office has been--had 
maintained the same funding-to-staff ratio present at the end 
of the prior Administration, it would have 950 full-time 
equivalents as opposed to approximately 550 that were in place 
last year. We heard earlier today that that number has actually 
decreased since last summer. That's 400 fewer employees to do 
the same amount of work. Understaffing contributes to funding 
delays, reduced morale for Federal employees, and higher 
attrition that create a vicious cycle for these problems.
     To summarize what we've observed, an agency with large 
amounts of unspent money, a history of delays and cancelations 
getting money out the door, and an increasing budget is 
deciding to hold up staffing and reduce staffing, all at a time 
when the agency should be spending the money more quickly and 
staffing up to comply with congressional will and support 
American innovators and businesses.
     These trends do not make sense unless you consider them in 
the context of the Administration's explicit proposals to gut 
these programs. As you've heard, the last three budget request 
would have totally eliminated ARPA-E and cut EERE funding by 
70, 71, and 86 percent respectively. Two of the requests, as I 
noted, also proposed canceling unspent funds from prior years, 
and each request proposed to cut staff. Even though Congress 
has outright rejected these proposals, the agency has delayed 
funds and reduced staff, as we've shown.
     That leads to my third and final point, which is that 
these issues merit congressional action. Increased oversight, 
including hearings like this one, can help identify problems 
and encourage the agency to execute its important research and 
development mission. I was pleased to hear from Mr. Simmons 
about the FOA announcements over the last 2 days leading up to 
this hearing and the publicizing of open positions in EERE. We 
hope that progress continues.
     I'll just say these programs need to expand, and with 
larger programs it will be even more critical to do this work. 
We hope you take these steps, and I thank you for the 
opportunity to discuss them in more detail.
     [The prepared statement of Mr. Krishnaswami follows:]
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
     Chairman Foster. Thank you. And at this point we'll begin 
our first round of questions. The Chair recognizes himself for 
5 minutes.
     Dr. Gay, the documents produced pursuant to the Freedom of 
Information Act request from Democracy Forward contained an 
email from August 29, 2018, from the then-leader of EERE Cathy 
Tripodi to a staffer at the DOE Golden Field Office. She said 
in that email that she was going to meet with you later the 
same day to discuss language of the new F-O-A, FOA. She emailed 
a few hours later that she told the--and told the Golden Field 
Office that ``Charlie seems fine with the language.'' Now, do 
you recall being asked about the specified alternative language 
in a meeting on October--on August 29 and reporting back that 
you were fine with the language?
     Dr. Gay. No.
     Chairman Foster. No, you do not. And so the--this is the 
two pages, the two pages that appear in your testimony.
     Dr. Gay. Yes.
     Chairman Foster. And I have to say when I read those, I 
was embarrassed for our government, that those two pages were 
so far from the level of competence that you saw in the 
original FOA or in fact in the--we saw when the career staff 
had done their best to repair the faulty thinking in those two 
pages. So I understand why you were not fine with that 
proposal.
     Dr. Gay, the documents produced by the Democracy Forward 
contained an email from July 30 from Ms. Tripodi to political 
appointees in the Office of Electricity. Now, she reported that 
the Solar Office has offered to rewrite Topic 1 in the solar 
FOA. To your knowledge have you or any representative of SETO 
offered to rewrite Topic 1 at that point?
     Dr. Gay. No, sir.
     Chairman Foster. And so this was something that she was 
going to personally rewrite herself?
     Dr. Gay. I don't know what she had in mind.
     Chairman Foster. Is it normal practice to have non-
technical political appointees rewrite the technical aspects of 
FOAs?
     Dr. Gay. Not in my experience.
     Chairman Foster. Thank you. Dr. Gay, the documents 
produced by Democracy Forward contained an email from September 
18th, 2018, from Ms. Tripodi to DOE Under Secretary Mark 
Menezes. In this email she told Mr. Menezes that she had met 
with EERE staff three times to, quote, ``ask them to explain 
what the words of--in the actual solar FOA in Topic 1 meant'' 
and that staff was unable to explain. Is that your 
recollection?
     Dr. Gay. No, sir.
     Chairman Foster. Do you recall any confusion on the part 
of the entities that responded to the FOA? Were they confused 
by it?
     Dr. Gay. It did not appear to be the case.
     Chairman Foster. So the confusion seems to be limited to 
Ms. Tripodi. In this email she said EERE staff told her that, 
quote, ``they would issue an amendment and never did and then 
proceeded to score Topic 1 against direction.'' Is that your 
recollection?
     Dr. Gay. No, sir.
     Chairman Foster. Did you or others in EERE commit to issue 
an amendment to the SETO FOA and that you did not then see 
through?
     Dr. Gay. No, sir.
     Chairman Foster. Did anyone advise SETO staff not to score 
the applicants to Topic 1 before SETO had already done so?
     Dr. Gay. No, sir.
     Chairman Foster. Dr. Gay, we understand that Ms. Tripodi 
apparently drafted the new SETO FOA language herself in 
collaboration with other political officials in the Office of 
Electricity and contracting staff from DOE Golden Field Office. 
Do you believe that to be correct?
     Dr. Gay. I don't have evidence to show how that rewrite 
came to be.
     Chairman Foster. OK. Well, it's very generous of you to 
refer to it as a rewrite. Briefly, what is the usual role of 
the Golden Field Office in preparing a FOA?
     Dr. Gay. Field offices are contracting partners, so the 
Solar Energy Technology Office is based here in Washington, DC, 
and the Golden Field Office is our partner for contracting 
purposes. The contracting lead there for most of our work has 
been Diana Bobo, and the Contract Grants Management Specialist, 
a gentleman named Clay Pfrangle. So when we issue a FOA, we 
write the technical part of the FOA here in our office, and 
when a FOA is issued, there's a very thick compendium of 
documentation about the mechanics of the review process, the 
protocols to be followed in submitting applications, and the 
protocols for review of those applications.
     Chairman Foster. So the Golden Field Office does not 
normally contribute to the technical substance of a FOA. Is 
that----
     Dr. Gay. That's correct.
     Chairman Foster. That is correct. So this was apparently 
an anomaly to the extent there was technical substance in that 
two-page rewrite. How unusual is it for a political official to 
take this on themselves, that a political appointee will just 
decide to do a complete technical rewrite?
     Dr. Gay. I have no idea.
     Chairman Foster. Have you ever experienced it in the time 
that you've been with the Department of Energy?
     Dr. Gay. No, sir.
     Chairman Foster. Or heard of it in the past?
     Dr. Gay. I have not heard of it before.
     Chairman Foster. OK. All right. Well, at this point I will 
yield the rest of my time and recognize the Ranking Member from 
Texas, Mr. Weber.
     Mr. Weber. Thank you, sir. Dr. Gay, I was looking a little 
bit of your bio. You started a company called Greenstar?
     Dr. Gay. Yes, I did. It's basically a foundation.
     Mr. Weber. Sure. And it says in 1990 you were the 
President and Chief Operating Officer of Siemens Solar 
Industries?
     Dr. Gay. Yes, sir.
     Mr. Weber. And now, of course if you read it on, you know, 
Facebook or Wikipedia, you know it's true, right? So it said 
you were responsible for increasing the sales in 110 countries.
     Dr. Gay. That's correct.
     Mr. Weber. And they're Siemens thin solar film. Were you 
successful at that?
     Dr. Gay. I believe that we were. We expanded the business 
and grew the company. We were able to add manufacturing 
capacity in both California and the State of Washington.
     Mr. Weber. So would you say the research done by the 
Department of Energy actually helped move that forward a little 
bit?
     Dr. Gay. Yes, it did. We were actually a recipient of 
funding for some of our R&D work at Arco Solar and Siemens 
Solar, the successor company.
     Mr. Weber. And then in 1997 you were on the board, and I 
was trying to read very quickly here, appointed to the board of 
the U.S. Department of Energy's National Renewable Energy 
Laboratory, NREL?
     Dr. Gay. I was Director, sir.
     Mr. Weber. Director, OK. Do you feel like you all had some 
success there?
     Dr. Gay. I feel like we did. It was a daunting time 
because I arrived shortly after the November 1994 election. And 
our budget had been cut by 1/3, which would have meant the need 
to lay off--if I did it proportionately--almost 400 employees. 
But by streamlining our processes, our business practices, I 
kept the layoff down to about 40 people.
     Mr. Weber. So it can be done with less employees. And 
refresh my memory. Who was the President back then?
     Dr. Gay. This took place--I don't recall actually.
     Mr. Weber. It was Bill Clinton.
     Dr. Gay. Clinton.
     Mr. Weber. By way of reminder. Well, it's good to hear 
that, you know, those agencies can be run, you know, even with 
less people.
     Are you aware that EERE received more applications to the 
revised assist FOA than the original 129 versus 92?
     Dr. Gay. Yes, I'd like to clarify the scope here.
     Mr. Weber. I'm glad you are because that's my next 
question.
     Dr. Gay. The two FOAs, the original FOA included a process 
called submission of a concept paper. There were 322 concept 
papers that were submitted, and of those 322, 67 of them were 
recommended for full proposals. We actually received 92 full 
proposals, which is the 92 referenced in the original FOA. In 
the second issuance of the FOA, there was no concept paper 
process. There was a notice of intent, which had about 220, 225 
responses. And of those people who responded to the notice of 
intent, we received something on the order of 120 proposals. So 
we actually received more proposals, but it was a different 
process sequence.
     Mr. Weber. OK. Thank you. You also say that if potential 
grantees do not think EERE is a reliable partner or doubt that 
the competitive process is fair, they are less likely to engage 
with DOE in the future. Did you experience that back in 1997?
     Dr. Gay. Repeat that first part if you would.
     Mr. Weber. You say that if potential grantees do not think 
that EERE is a reliable partner or doubt that the competitive 
process is fair, they are less likely to engage with DOE in the 
future. Back in 1997 you became the Chairman of NREL. Did you 
experience that then?
     Dr. Gay. No, sir, I did not.
     Mr. Weber. No? Is there any proof that this revised FOA 
gave awards in an unfair process or unfair manner?
     Dr. Gay. No, sir.
     Mr. Weber. None that you know of?
     Dr. Gay. No.
     Mr. Weber. OK. Are you aware of any institutions or anyone 
that now refuses to seek DOE grants because they think EERE is, 
in your opinion, unreliable?
     Dr. Gay. No, sir. I don't believe that I used the word 
unreliable in my own written or oral testimony.
     Mr. Weber. No? What word did you use? Refresh my memory. I 
was trying to read quickly on two fronts.
     Dr. Gay. I didn't reference the projected behavior of 
somebody else at all.
     Mr. Weber. Yes. OK. Thank you. All right. Well, I'm out of 
time. I've got other questions, so I yield back. Thank you.
     Chairman Foster. Thank you. And the Chair will now 
recognize the gentleman from Virginia, Mr. Beyer.
     Mr. Beyer. Mr. Chairman, thank you very much. Thank you 
all for being with us today.
     I--as Mr. Reardon knows, I represent more Federal 
employees in the Virginia's 8th District than any other Member 
of Congress. I'm close with Ms. Wexton here, but--and so this 
is a--the core of this hearing is really important to me and my 
constituents.
     And I've been deeply distressed over the last 3 years 
about the negative impact this Administration is having on our 
Federal workforce, especially the belittling of Government 
employees, the harsh and critical budget cuts to Federal 
agencies, programs that do untold damage to our Federal 
workforce. So I just want to use this opportunity to shout out 
to the wonderful good government we have and the wonderful 
Federal employees we have who do make us--this wonderful 
country.
     And, by the way, last night's speech was very difficult to 
listen to, but one of the things I took most objection to was 
the President's taking credit for the paid maternity and 
paternity leave for Federal employees. Let's point out that 
we've been fighting that for years up here without a single 
Republican cosponsor. And that was a tradeoff made, a 
compromise made to get his space force, that the only reason we 
got that was because we strongly negotiated for it, and the 
return was that he got the space force that he needed.
     Mr. Reardon, you mentioned in your testimony higher rates 
of attrition among existing EERE staff. Assistant Secretary 
Simmons talked about a 5.8 percent increase in the global 
satisfaction of EERE employees in the Federal Employee 
Viewpoint Survey. Can you tell us where they started? With the 
5.8 percent was an increase from?
     Mr. Reardon. Yes, I'm not certain exactly what the 
specific number is. I mean, certainly I could get that back 
to--get back to you on that. But, you know, I think what's 
important to recognize is, No. 1, who's taking the--who's 
actually taking the survey. Are frontline employees taking it? 
What we've seen historically is there are often times when I am 
really pushing our members to take the survey, I think it's 
important for their views to be known. And because frequently 
frontline employees don't believe anything is really done with 
the findings in the survey, oftentimes they will refuse to take 
it. They won't take it. I don't know that that's the case here, 
but that's what we've seen over the years to a pretty great 
extent.
     Mr. Beyer. What are you saying in terms of attrition at 
EERE, especially among the GS-14s and 15s?
     Mr. Reardon. Well, we're seeing--we're certainly seeing 
people leave. And I will tell you that I--I think, Congressman 
Beyer, that it is in large measure due to the way that the 
agency is treating employees. You know, I think it's--I think 
we all recognize that when you work at a place and you don't 
feel valued, that morale goes down. And when morale goes down, 
what typically happens? People leave.
     And so, you know, we've got--I've been hearing from folks, 
we've been hearing from folks that are letting us know that 
those who are near retirement, they feel like they are really 
being pushed out the door. Those who aren't near retirement, 
they're being moved, transferred out of EERE, or being pushed 
out. And, you know, news travels quickly when people in a 
workplace do not feel valued or that they're treated with 
dignity and respect candidly.
     And I--and one quick story is that we have a--we had a 
former member. He--this particular individual, as I understand 
it, no longer is alive but was an organ--had an organ 
transplant. And this individual's doctor had said, you know, it 
is important that you stay home so, you know, it would be 
appropriate for you to telework. And in--it took us a great 
deal of fighting with the agency in order to get them to follow 
their own telework policy so that this individual could work at 
home. And that just shouldn't happen.
     So I think it's important that employees feel that they're 
treated fairly, with dignity and respect, and I think we might 
be able to see people sticking around if that were to be the 
case.
     Mr. Beyer. Mr. Reardon, one of the great fun things is 
that political leadership, literally the White House, thinks 
that EERE is too top-heavy, too--the average person is too 
senior. How do you react to that?
     Mr. Reardon. Well, I think, first of all, to the extent 
that there are a significant number of senior personnel, it 
seems to me that we've got a lot of folks that have to be 
highly qualified to do a lot of this work. And so, you know, 
what I am really concerned about, Congressman, is, you know, 
we've heard some testimony today and some comments from Members 
today suggesting that, you know, we need to make certain that 
there is oversight, that we're paying attention to what work is 
actually being done by these grant recipients. And the fact is 
that that is impossible to do properly without an appropriate 
number of staff. And so that ends up being a significant 
problem.
     Chairman Foster. Thank you. And the Chair will now 
recognize the gentleman from Illinois, Mr. Casten, for 5 
minutes.
     Mr. Casten. Thank you. Thank you, Mr. Chairman. Thank you 
to the Committee. Excuse me.
     What I've seen throughout the investigation of EERE's 
cancelation and reinstatement of solar power grants is the 
infiltration of partisan politics into grantmaking, which is 
designed to be an apolitical process. The political appointee, 
without consulting with the career public servants with decades 
of experience administering grant programs like these, pulled 
the plug on the Topic 1 grants. You know, given this 
Administration's track record and their hostility to using data 
to inform decisions from tax policy to climate policy and on, 
it's hard not to believe that their opposition played a role in 
that.
     And frankly it's also--it's not the only time we've seen 
this. In this department my staff and I have spoken with public 
servants who said that since this incident it's become 
commonplace for political appointees to review FOAs, the 
funding opportunity announcements, or calls for grant proposals 
before they're released. And, as we heard in the prior hearing, 
the office's leadership and particularly the Deputy Assistant 
Secretaries are increasingly political appointees that are 
required to be approved by senior staff at a level that was not 
true in the prior Administration.
     Dr. Gay, is it safe for me to paraphrase your testimony to 
say that you believe that political appointees and their 
partisan motivations were influencing how FOAs were written and 
how grants were awarded?
     Dr. Gay. I have no special insight to their motivations, 
sir. The mechanics here are what they are and what I 
experienced. But the--behind that storyline I don't know how to 
explain it.
     Mr. Casten. Do you--would you care to speculate on why you 
think--I mean, this process that Mr. Foster described of a 
rigorous, thoughtful FOA becoming a two-page memo--why--what do 
you think drove that?
     Dr. Gay. I'm not one to speculate, sir. I don't know.
     Mr. Casten. OK. I appreciate your willingness to stick to 
facts that we understand.
     Mr. Reardon, you mentioned in your testimony that the 
career public servants that comprise your union membership 
believe their expertise is being disregarded by this 
Administration. Have your members spoken about partisan 
motivations encroaching on grantmaking and similar 
decisionmaking?
     Mr. Reardon. I've not personally heard anything about that 
issue.
     Mr. Casten. OK. Mr. Krishnaswami, in your written 
testimony you explicitly called the delay in the solar power 
grants politically motivated. Do you care to speak to what you 
meant by that and----
     Mr. Krishnaswami. Thank you, Congressman. I would note two 
things here. One is that leading up to the solar FOA, the 
funding opportunity had already been through rigorous review 
both by the program staff, as well as by--through a new 
political process that was instated in 2017 by the 
Administration to vet the funding opportunities. So the funding 
opportunity had been through that entire process, and then days 
before it was announced, you know, was canceled by a different 
political appointee who was in an acting position, as we've 
heard, and actually, it was initially approved by Mr. Simmons 
before that. So that points to the fact that there was a 
circumventing of the process that was already established to 
cancel this funding opportunity.
     The second thing I'd point out is that looking at the data 
that we presented, as well as the cancelation of this funding 
opportunity, it aligns with what the Administration has 
publicly proposed in its budget request, cutting the Solar 
Energy Office, cutting the other programs within EERE, as well 
as rescinding prior--you know, prior funds from earlier years. 
So it's hard for us not to draw the connection between those 
explicit proposals and the actions that we've seen.
     Mr. Casten. Final question just for any of you who'd care 
to answer, I spent 16 years in the clean-energy industry. I 
sold about 80 clean-power projects and with one exception I 
never sold it to anybody because they cared about climate 
change. I did. They just wanted to save money because if you're 
generating energy with less raw energy input, you tend to have 
more cash in your wallet at the end of the day.
     I'm trying to understand why an Administration that on its 
face they like to talk about how much they love capitalism and 
markets. Can you speculate, any of you, on why it is that they 
seem to be working so hard to block the deployment of 
technologies that would make us wealthier?
     Mr. Krishnaswami. Thank you, Congressman. I would just add 
that these actions align with other actions that the 
Administration has taken to limit clean-energy development and 
prevent clean-energy development despite the well-proven 
economic benefits and savings that clean energy provides to the 
public.
     Mr. Casten. Thank you. I yield back.
     Mrs. Fletcher [presiding]. Thank you, Mr. Casten.
     I will now recognize myself for 5 minutes. And thank all 
of the witnesses for being here for this panel this morning.
     My first question, Dr. Gay, is addressed to you. DOE told 
us that they needed to cancel the original Topic 1 solar 
funding opportunity announcement, or FOA, because the Solar 
Energy Technologies Office didn't adequately consider grid 
integration concerns. But I'm looking at the original FOA now, 
and Topic 1 is titled ``Advanced Solar Systems Integration.'' 
It describes, quote, ``SETO research priorities and the 
seamless integration of high penetrations of solar energy onto 
the Nation's electricity grid.'' So would you agree with DOE's 
assertions to Congress, the public, and hundreds of applicants 
from companies and universities across the country that the 
original FOA did not sufficiently address grid integration 
issues?
     Dr. Gay. I would not agree, and to reinforce that, I want 
to reinforce the message of how much work we did to collaborate 
with the Office of Electricity. We made modifications to the 
FOA in response to their recommendations for what wording we 
used in the FOA. We carried out reviews all the way back to 
October of 2017 of what our plans were. I personally met with 
staff in the Office of Electricity to preview our plans, to 
cover the scope of anticipated work, to solicit their feedback 
on what we had and how we could better optimize together what 
we were looking to do.
     So the facts here are that there was a great deal of 
collaboration, especially I wanted to highlight the 
contributions of two people in the Office of Electricity who 
did a terrific job of helping build bridges here. One is the 
Deputy Assistant Secretary Michael Pesin and one is a gentleman 
named Gil Bindewald. We also collaborated with the 
cybersecurity folks at the beginning of the FOA period. It was 
with Carol Hawk, who was in the Office of Electricity 
responsible for cybersecurity of the grid. She moved into the 
CESER office, the Cyber Energy Reliability Office. And we 
continued to have her involved, along with representatives from 
the Office of Electricity in the reviews of the FOA, in the 
scoring of the FOA, and the selection--down-selection process 
that were part of the Federal Consensus Review Panel.
     Mrs. Fletcher. Thank you. I think in your answer you 
anticipated a couple of my other questions, but I do want to 
follow up on sort of two things related to your testimony about 
your time there as the Director and the work that you did with 
the Office of Electricity. So I guess sort of two thoughts. 
One, based on your time and experience, can you provide any 
insights into the origin of the claim that there wasn't 
sufficient research if you have any? And, two, kind of with 
that in mind, is it your opinion that there is any reasonable 
justification for canceling the original FOA?
     Dr. Gay. I am not aware of any conversations that took 
place before the cancelation where there was an engagement to 
discuss what a rewrite would entail. The rationale for 
canceling, as I pointed out, were twofold, one that we had not 
done adequate collaboration with the Office of Electricity, 
which I think I've spoken to well enough here. And the other 
was that the writing was not understandable. Part of the 
understandable nature of the writing I found befuddling because 
the document I was handed to replace the original FOA with was 
itself not understandable. It called for putting distributed 
energy resources into the transmission system. Distributed 
energy resources are in the distribution system, and they are 
operated separately from the transmission system. So the 
document that I was given to form the foundation of reissuing 
was not technically understandable.
     Mrs. Fletcher. And as a follow-up to that, what was the 
origin of that document you were--who gave it to you?
     Dr. Gay. It was handed to me by acting EE1 Tripodi.
     Mrs. Fletcher. And, I'm sorry, did I let you finish the 
remainder of your answer there on whether there was any 
reasonable justification? I think you've identified the two 
reasons that were given, and it's my understanding that you 
don't think that those reasons are sufficient. Is that a fair 
takeaway?
     Dr. Gay. Yes, it is, and it's reinforced by the fact that 
the rewrite had to be rewritten.
     Mrs. Fletcher. Thank you. I only have a short--actually, 
I've gone over my time, so if we do a second round of 
questions, I have another question for you. But otherwise, I 
will yield back, and I will recognize Ms. Bonamici for 5 
minutes. Thank you.
     Ms. Bonamici. Thank you to the Chair, and thank you to all 
the witnesses for being here.
     I represent a district in northwest Oregon, and I know at 
home in the Northwest but also across the country and around 
the globe people are demanding comprehensive action to reduce 
greenhouse gas emissions to address the climate crisis. It's 
such a critical issue. And to meaningfully do that, to reduce 
emissions, we need to accelerate our transition, adjust 
transition to 100 percent clean-energy economy, and that is 
going to take robust investments in EERE.
     And even as, Mr. Reardon, your testimony pointed out, over 
the last 12 years the investments in EERE, $20 billion, has 
yielded a net economic benefit of $230 billion. So going back 
to Mr. Casten's point about these are good investments, and 
that's why we need to be making them.
     Mr. Krishnaswami, we appreciate the NRDC's continued 
efforts to provide oversight and transparency on the DOE's 
attempts to sideline congressional intent in allocating the 
EERE and ARPA-E funds. And in your testimony you noted that 
EERE ended fiscal year 2019 with about 4 percent of the 
office's funds unallocated and 18 percent unspent. And ARPA-E 
ended with 48 to 68 percent of its funds unallocated and up to 
91 percent unspent. How do these carryover amounts compare to 
previous Administrations? And how has the delayed distribution 
of those funds affected our Nation's capabilities to 
effectively reduce greenhouse gas emissions and transition to a 
clean-energy economy? When we look at the return we get on 
those investments, what has that meant to our energy future?
     Mr. Krishnaswami. Thank you, Congresswoman. I'd note two 
points. The first is that when we looked back at this--the--at 
this analysis, we went back several years in the prior 
Administration, and we found that consistently both EERE and 
ARPA-E were putting out the announcements of funding 
opportunities later in the year and actually awarding the--
choosing the selections also later in the year or after the 
fiscal year had ended. So especially over the last 2 years 
ARPA-E and EERE were behind where we were under the prior 
Administration.
     And to your broader question, the second point is really 
that we know that these programs, as has been stated several 
times, are really beneficial in terms of the return on taxpayer 
investment to the public. We also know that they've already 
made a dent in the climate challenge and that they need to be 
much, much larger to actually match the scale of the climate 
crisis. So any delays in getting those money--that money to 
researchers and businesses or preventing it from getting to the 
public is really a delay in those benefits from reaching people 
and a delay in combating this urgent climate crisis.
     Ms. Bonamici. Absolutely. And I'll note I just--I came--
prior to this hearing, this morning we had a hearing in the 
Select Committee on the Climate Crisis where we were talking 
about the health effects of the climate crisis. And former EPA 
Administrator McCarthy was there. We were talking about the 
social cost of carbon and the healthcare costs that are also so 
important to consider. So it's--we need to consider all those 
aspects as well.
     So I wanted to also ask again, Mr. Krishnaswami and Mr. 
Reardon. I share your concerns that given the significant 
backlog of unobligated funds within EERE, the Department has 
not hired more staff to help process more FOAs since the 
Federal hiring freeze was lifted. So in your opinion what--
what's delaying the Department? Mr. Gay, you might want to 
weigh in on this as well. What's delaying the Department in 
hiring more staff? And as we look to the President's budget 
proposal next week, how will the Administration respond to the 
2020 report language that--about the Department reaching a 
staffing level of 650 FTEs this year?
     Mr. Krishnaswami. Thank you. I would note that, you know, 
we don't know exactly what has changed within the hiring 
process at DOE or what is causing each individual holdup in 
announcing positions or filling the positions. But we do see 
the trends in the data, which show that the number of staff 
have decreased and particularly with increasing budgets. So 
really I think it's really important to understand and identify 
what those holdups are, what has changed in the process of 
hiring. And we encourage you to work with the DOE to determine 
that, identify it, and change it so that EERE can hire faster.
     Ms. Bonamici. And thank you. I have a little bit of time 
left. Mr. Reardon and Mr.--Dr. Gay?
     Mr. Reardon. Yeah, I'd be happy to jump in there. I have 
no idea what is--what's causing the holdup. Clearly, there is 
one. Clearly the EERE is far too understaffed. The point that I 
think I would add to other things I've already said is that, 
you know, we've talked about not having a blank check to these 
companies that have--that are receiving these grant funds. One 
way to make certain that we are not in fact giving a blank 
check is to ensure that we have enough staff to be out there--
--
     Ms. Bonamici. Absolutely.
     Mr. Reardon [continuing]. Tracking and providing the 
absolutely necessary oversight that the American people 
deserve.
     Ms. Bonamici. Yes. And the light turned red, but Dr. Gay, 
very briefly, do you have a couple words to----
     Dr. Gay. Yes. This is about delegation of authority, that 
being able to delegate the responsibility and hold people 
accountable. During the course of the past several years, the 
hurdle has raised rather than stayed where it was or been 
lowered in order to have the authority to carry out the hiring.
     Ms. Bonamici. Thank you. I yield back.
     Mrs. Fletcher. Thank you. I'd now like to recognize 
Representative Wexton for 5 minutes.
     Ms. Wexton. Thank you, Madam Chair. And thank you to the 
witnesses for joining us today. This has been very informative. 
Your testimonies have really shed a light on the important work 
that EERE is doing for America and our use of renewables.
     This--as we've heard, this use of new technology helps 
drop the cost of renewables and provides greater opportunity to 
adapt them to these technologies and drive job growth. In 
Virginia, for example, in my home State growth in the solar 
sector grew by 9 percent, job growth did in 2018. Now, it could 
have been better, but that's still pretty good.
     Now, it's alarming to hear the extent to which 
congressionally appropriated dollars for growth in this 
industry have not been spent and that there are great 
opportunities that are just languishing. And it's very 
disturbing to hear about the impact on EERE's workforce.
     You know, Mr. Reardon, you said in your testimony 
something that was very important about Federal workers and 
career civil servants, that they do this work out of a desire 
to serve their country. And they are experts in the field, and 
they get paid a lot less than they do in the private sector, 
but they do this work because they believe in the mission of 
the agency, and they love it. And so I'd like to talk a little 
bit about what they actually do at the EERE.
     Dr. Gay, can you elaborate a little bit on what it means 
to actually oversee an EERE grant? What do the workers do in 
those cases on a day-to-day basis?
     Dr. Gay. Typically, there's a process for follow-up with 
each of the awardees for reviewing their process. As part of 
their proposals that are submitted, they have to submit 
milestones and goals and a timeline. In the office we review 
the progress against those milestones, and if things seem to 
veer from the course that was projected, we collaborate with 
the awardee on what actions to take, whether it's appropriate 
to pivot, whether it's appropriate for them to add more 
emphasis in a different way. So there's a lot of follow-through 
with the awardees to assure that the intention of the original 
funding from Congress is maintained and it continues throughout 
the period of execution of that award.
     Ms. Wexton. So it's a part of being good stewards of the 
Federal resources, of the taxpayer dollars and making sure that 
we get results for our investment. Is that correct?
     Dr. Gay. Yes. I'm a taxpayer, too, and I care about what 
happens here. And I especially care about clean energy. So it's 
a combination of the business background that I bring to follow 
that structure, to follow the roadmaps and the processes so 
that we execute on schedule, on time, and on budget.
     During the time that I ran the office, we actually----
     Ms. Wexton. And, I'm sorry, I'm going to reclaim my time 
because I'm running out. But with fewer employees doing this 
important work, there's going to be some impacts to their 
ability to perform their jobs. Is that correct, Mr. Reardon?
     Mr. Reardon. That is correct. And----
     Ms. Wexton. And are you hearing concerns from your members 
about how their workload is suffering given the--or how the 
work product is suffering given the workload that they are 
required to complete?
     Mr. Reardon. Absolutely, we are.
     Ms. Wexton. Are there--do you have any data about 
personnel complaints that you may have received for--from DOE 
or from Department of Energy because of being overwhelmed or 
anything like that?
     Mr. Reardon. Well, clearly, we have ongoing conversations 
with our members, so we're hearing all the time about that. In 
terms of specific data, I don't have that today. But I can 
assure you there is a great deal of concern, and the morale is 
pretty low.
     Ms. Wexton. And have you heard of DOE employees taking on 
obligations that they didn't have--that they didn't have in the 
past or that weren't necessarily parts of their general job 
description?
     Mr. Reardon. Well, what I've primarily heard is where 
employees are having to take on a much bigger portfolio. And, 
as a result, they're not able to, you know, do the work that 
they think is necessary to provide proper oversight.
     Ms. Wexton. OK. Dr. Gay, do you have anything to add to 
the employee oversight issue?
     Dr. Gay. I care a lot about the workload that the 
employees carry, and our budgets have been increasing as time 
has gone by. The staffing level has been shrinking. There's 
normal attrition maybe on the order of 6 percent per year. So 
not even being able to backfill for attrition puts more burden 
on the existing workforce.
     Ms. Wexton. Well, Doctor, we heard from Assistant 
Secretary Simmons earlier today, and he said that hiring new 
employees was a top priority for him. But clearly, that seems 
to be in conflict with the facts. And thank you. I yield back.
     Mrs. Fletcher. Thank you. I'll now recognize Mr. Lamb for 
5 minutes.
     Mr. Lamb. Thank you, Madam Chair. Thank you to all three 
of you for being with us this morning and sticking out this 
kind of long hearing.
     Mr. Reardon, you mentioned in your testimony that when 
your employees are driven out of public service, they have very 
competitive private-sector opportunities often in places that 
are willing to play to pay them more and treat them with more 
dignity and respect. Could you state a little bit more about 
that? I don't know how specific you can get, but what types of 
jobs are they leaving the government for?
     Mr. Reardon. Well, I don't know specifically with regard 
to folks from EERE. What I can tell you is NTEU represents 
employees in 33 different Federal agencies, and there is no 
question but that--whether they're from the Internal Revenue 
Service or FDIC (Federal Deposit Insurance Corporation) or 
wherever, they have the ability to go out and earn far larger 
paychecks in the private sector.
     What I can tell you is that, as I said, we represent 
employees in 33 agencies. I talk to employees across the 
Federal Government all the time. And so what is it--if they can 
get a bigger paycheck somewhere else, what is it that drives 
them to come to Federal service or drives them to stay in 
Federal service? And I'll tell you what it is. It is to serve 
this country. They believe in the mission. They believe in this 
country, and they believe in serving the American taxpayer. 
That's what keeps them here. That's what brings them here in 
the first place.
     Mr. Lamb. Yes. I think that's absolutely right. That's 
been my experience with public servants across agencies as 
well. I think in this case it's even more glaring because we 
make the comparison all the time between our race for carbon-
free, affordable energy to the space race and to the Manhattan 
Project. And I think it's a fair analogy. You can tell me if 
you agree. But I think this is a fair analogy to if President 
Eisenhower or President Kennedy had chased out NASA (National 
Aeronautics and Space Administration) employees after Sputnik 
or if, you know, the folks who were working on the Manhattan 
Project all of a sudden were getting run out the door, you 
know, as we got further and further along during World War II.
     I think that the threat of losing this race to a peer 
competitor like China is that real. I mean, we know the 
investments that they're making. They are all State-led and 
State-directed, and they are making themselves the sole 
employer in their country. They're not having this same 
problem. Would you agree?
     Mr. Reardon. Well, I don't want to pretend that I'm a 
scientist or that I'm an expert in this field. It sounds right 
to me, but I'll leave the--I'll leave some of that to some of 
the experts.
     Mr. Lamb. Thanks.
     Mr. Reardon. I am concerned, though, anytime I think we're 
talking about important science like this, if we're leaving it 
whether countries to kind of come in and fill the void, as an 
American taxpayer, that would concern me.
     Mr. Lamb. And again, if you're someone who doesn't believe 
that the Government has an important role to play in all of 
this, you know, maybe some of this makes sense. But we--history 
does not support that. I mean, history supports that the role 
of the Federal Government is essential and that it has helped 
distinguish us from our peer competitors in the past and will 
do so again if we do it right.
     Mr. Krishnaswami, thank you for the information that 
you've added to this debate today. I think apart from the 
workforce issues that we're, you know, tragically having, the 
fact that we are not even spending the research and grant 
dollars that we're allocating is even more alarming 
particularly because Members in both parties on this Committee, 
full Committee have supported increased funding for ARPA-E. I 
think was actually one of the great bipartisan success stories 
of 2019 was that we were able to reach an agreement across the 
aisle and in sort of old-fashioned way to increase the budget 
for ARPA-E for the first time since it was created after 2008.
     Any insight or explanations that you can see as to why--I 
mean, if these numbers you're giving us are accurate, the vast 
bulk of their funding in 2018 and 2019 just wasn't spent?
     Mr. Krishnaswami. Thank you, Congressman. So I'd note two 
things. One is that the analysis that I presented were we 
conducted them at the end of the fiscal year, right? So what 
we're looking at was by the time the fiscal year was over how 
much has each--has ARPA-E or EERE actually allocated announced 
in funding opportunities and then spent? And we found that at 
the end of last fiscal year ARPA-E had allocated some of its 
money but far less than the total, so it had announced funding 
opportunities. And then based on the publicly available 
announcements had not actually--had spent very little of that 
money. Since then, I believe that they have spent some of that 
money, but we were looking at by the end of the fiscal year----
     Mr. Lamb. Right. There's a sense of urgency that they need 
to be operating with here given the scale of the problem but 
also given the number of people who want to participate in 
being part of the solution. I mean, part of the reason we voted 
again across party lines to support the budget increase for 
this program is that they told us they were only able to accept 
like 1 out of every 100 applications they were getting. There 
was massive demand to be part of this program, and we needed to 
give them more resources in order to be able to take gambles 
essentially on a higher number of good ideas. So thank you for 
bringing that information to light. Everybody needs to know 
about it, especially Members of this Committee, and hopefully 
we can take steps to try to force some accountability from the 
Administration.
     And, Madam Chair, I yield back.
     Mrs. Fletcher. Thank you very much. And I thank you, too, 
for the issues that you've raised and brought to the 
Committee's attention today and your testimony. I want to thank 
you all for being here today.
     Before I bring the hearing to a close, I would like to 
mention that the record will be open for 2 weeks for additional 
statements from Members and for any additional questions the 
Committee may ask of the witnesses. I know I mentioned early on 
that I had a few more questions, so I'll be submitting some 
questions for the record. And we'll look forward to seeing your 
responses.
     At this point in time the witnesses are excused and the 
hearing is adjourned.
     [Whereupon, at 12:15 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Mr. Daniel Simmons

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Charles Gay

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Arjun Krishnaswami

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




             Report submitted by Representative Bill Foster
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             


                Reports submitted by Arjun Krishnaswami,
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                


                                 <all>
</pre></body></html>
